No.
IN THE

Supreme Court of the United States
AGUSTO NIZ-CHAVEZ,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
PETITION FOR A WRIT OF CERTIORARI

SUFEN HILF
HILF & HILF, PLC
1775 W. Big Beaver Rd.
Troy, MI 48084

DAVID J. ZIMMER
Counsel of Record
GOODWIN PROCTER LLP
100 Northern Ave.
Boston, MA 02210
dzimmer@goodwinlaw.com
(617) 570-1000
Counsel for Petitioner
January 9, 2020

QUESTION PRESENTED
The Attorney General can cancel removal of certain
immigrants under 8 U.S.C. § 1229b(a) and (b). To be
eligible for cancellation of removal, a non-permanent
resident must have ten years of continuous presence
in the United States, and a permanent resident must
have seven years of continuous residence.
Id.
§ 1229b(a)(2), (b)(1)(A). Under the “stop-time rule,”
the government can end those periods of continuous
residence by serving “a notice to appear under section
1229(a),” which, in turn, defines “a ‘notice to appear’”
as “written notice . . . specifying” specific information
related to the initiation of a removal proceeding. Id.
§§ 1229b(d)(1), 1229(a)(1). In Pereira v. Sessions, 138
S. Ct. 2105, 2117 (2018), this Court held that only notice “in accordance with” section 1229(a)’s definition
triggers the stop-time rule.
The question presented in this case is:
Whether, to serve notice in accordance with section
1229(a) and trigger the stop-time rule, the government must serve a specific document that includes all
the information identified in section 1229(a), or
whether the government can serve that information
over the course of as many documents and as much
time as it chooses.

i

PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the
cover page.
RELATED PROCEEDINGS
U.S. Court of Appeals for the Sixth Circuit:
Niz-Chavez v. Barr, No. 18-4264 (Oct. 24, 2019)

ii

TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
STATUTORY PROVISIONS INVOLVED ................. 1
INTRODUCTION ....................................................... 3
STATEMENT.............................................................. 6
A. The government must serve notice “in
accordance with” section 1229(a) to trigger
the stop-time rule. ............................................... 6
B. The courts of appeals are divided
concerning section 1229(a)’s requirements. ..... 12
C. Mr. Niz-Chavez’s eligibility for cancellation
of removal turns on this circuit conflict. .......... 18
REASONS FOR GRANTING THE WRIT ............... 20
I.

The Court should grant certiorari to resolve
a circuit conflict on an important and
recurring issue concerning eligibility for
cancellation of removal. .................................... 22

II. Certiorari is particularly important because
the BIA majority’s interpretation is wrong. ..... 26
A. Section 1229(a)’s text and history
unambiguously require a specific notice
document, not service of the listed
information however and whenever the
government chooses. ................................... 26
B. The agency’s interpretation is not a
reasonable one. ........................................... 33
iii

III. This case is an ideal vehicle to resolve the
circuit conflict. ................................................... 35
CONCLUSION ......................................................... 38
APPENDIX A: Court of Appeals Decision .............. 1a
APPENDIX B: Board of Immigration Appeals
Decision ...................................................... 16a
APPENDIX C: Immigration Judge Decision ........ 26a
APPENDIX D: Immigration Judge Ruling on
Cancellation Eligibility ...................................... 41a
APPENDIX D: Relevant Statutes ......................... 43a

iv

TABLE OF AUTHORITIES
Page(s)
CASES
Chevron USA, Inc. v. Nat. Res. Defense
Council, Inc.,
467 U.S. 837 (1984) ........................................ 26, 33
Dable v. Barr,
__ Fed. Appx. __, 2019 WL 6824856
(6th Cir. Dec. 13, 2019) ...................... 18, 22, 24, 32
Encino Motorcars, LLC v. Navarro,
136 S. Ct. 2117 (2016) .................................... 33, 34
Garcia-Romo v. Barr,
940 F.3d 192 (6th Cir. 2019) .........................passim
Gonzales-Garcia v. Holder,
770 F.3d 431 (6th Cir. 2014) .......................... 20, 35
Kisor v. Wilkie,
139 S. Ct. 2400 (2019) .......................................... 26
Lopez v. Barr,
925 F.3d 396 (9th Cir. 2019) .........................passim
Matter of Bermudez-Cota,
27 I. & N. Dec. 441 (BIA 2018) ...................... 13, 15
Matter of Camarillo,
25 I. & N. Dec. 644 (BIA 2011) .....................passim
Matter of Cisneros-Gonzalez,
23 I. & N. Dec. 668 (BIA 2004) .............................. 8
Matter of Mendoza-Hernandez,
27 I. & N. Dec. 520 (BIA 2019) .....................passim
Matter of Ordaz,
26 I. & N. Dec. 637 (BIA 2015) ................ 10, 12, 34

v

Matter of Sotelo-Sotelo,
23 I. & N. Dec. 201 (BIA 2001) .............................. 7
Ortiz-Santiago v. Barr,
924 F.3d 956 (7th Cir. 2019) .................... 13, 16, 29
Pereira v. Sessions,
138 S. Ct. 2105 (2018) ...................................passim
Perez-Sanchez v. U.S. Attorney General,
935 F.3d 1148 (11th Cir. 2019) ................ 13, 15, 16
Pierre-Paul v. Barr,
930 F.3d 684 (5th Cir. 2019) .......................... 13, 17
STATUTES
Illegal Immigration Reform and
Immigrant Responsibility Act, Pub.
L. 104-208, Div. C, 110 Stat. 3009546 ........................................................................... 8
Immigration Act of 1917, 39 Stat. 874 ........................ 6
Immigration and Nationality Act:
8 U.S.C. § 1229(a)(1)...................................... 2, 4, 27
8 U.S.C. § 1229(a)(1)(A) ........................................... 9
8 U.S.C. § 1229(a)(1)(B) ........................................... 9
8 U.S.C. § 1229(a)(1)(C) ........................................... 9
8 U.S.C. § 1229(a)(1)(D) .......................................... 9
8 U.S.C. § 1229(a)(1)(E) ..................................... 9, 31
8 U.S.C. § 1229(a)(1)(F) ........................................... 9
8 U.S.C. § 1229(a)(1)(F)(i) ..................................... 31
8 U.S.C. § 1229(a)(1)(G)(i) ....................................... 9
8 U.S.C. § 1229(a)(1)(G)(ii) .................................... 31
8 U.S.C. § 1229b(a) ................................................ 25
vi

8 U.S.C. § 1229b(b) .................................................. 7
8 U.S.C. § 1229b(b)(1).................................... 1, 7, 25
8 U.S.C. § 1229b(d)(1)................................ 1, 4, 8, 11
8 U.S.C. § 1252(b)(2).............................................. 23
8 U.S.C. § 1252b(a)(1) (1994) ........................ 8, 9, 28
8 U.S.C. § 1252b(a)(2)(A) (1994) ....................... 9, 28
1 U.S.C. § 1................................................................. 15
REGULATIONS AND RULE
8 C.F.R. § 3.18 (1996) .................................................. 9
8 C.F.R. § 242.1(b) (1996) ............................................ 9
8 C.F.R. § 1003.14(a) ................................................. 23
8 C.F.R. § 1003.18 ...................................................... 10
8 C.F.R. § 1003.18(b) ........................................... 10, 35
Sup. Ct. R. 24 ............................................................. 33
OTHER AUTHORITIES
62 Fed. Reg. 449 (Jan. 3, 1997) ............................. 4, 10
H.R. Rep. No. 104-469 (1996) ................................ 9, 31
S. Rep. No. 81-1515 (1950) .......................................... 6
U.S. Courts, Judicial Business,
Table B-3 (2018) ................................................... 22

vii

PETITION FOR A WRIT OF CERTIORARI
________________________
Petitioner Agusto Niz-Chavez respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The decision of the court of appeals (Pet. App. 1a15a) is reported at __ Fed. Appx. __, 2019 WL
5446002. The decisions of the Board of Immigration
Appeals (Pet. App. 16a-25a) and the immigration
judge (Pet. App. 26a-40a) are unreported.
JURISDICTION
The judgment of the court of appeals was entered
on October 24, 2019. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
8 U.S.C. § 1229b(b)(1) provides in relevant part:
The Attorney General may cancel removal of,
and adjust to the status of an alien lawfully admitted for permanent residence, an alien who is
inadmissible or deportable from the United
States if the alien—
(A) has been physically present in the United
States for a continuous period of not less than
10 years immediately preceding the date of
such application * * * * .
8 U.S.C. § 1229b(d)(1) provides in relevant part:
For purposes of this section, any period of continuous residence or continuous physical pres-

2
ence in the United States shall be deemed to end
* * * when the alien is served a notice to appear
under section 1229(a) of this title * * *.
8 U.S.C. § 1229(a)(1) provides:
In removal proceedings under section 1229a of
this title, written notice (in this section referred
to as a “notice to appear”) shall be given in person to the alien (or, if personal service is not
practicable, through service by mail to the alien
or to the alien’s counsel of record, if any) specifying the following:
(A) The nature of the proceedings against the
alien.
(B) The legal authority under which the proceedings are conducted.
(C) The acts or conduct alleged to be in violation of law.
(D) The charges against the alien and the
statutory provisions alleged to have been violated.
(E) The alien may be represented by counsel
and the alien will be provided (i) a period of
time to secure counsel under subsection (b)(1)
and (ii) a current list of counsel prepared under
subsection (b)(2).
(F)
(i) The requirement that the alien must
immediately provide (or have provided) the
Attorney General with a written record of
an address and telephone number (if any) at
which the alien may be contacted respecting

3
proceedings under section 1229a of this title.
(ii) The requirement that the alien must
provide the Attorney General immediately
with a written record of any change of the
alien’s address or telephone number.
(iii) The consequences under section
1229a(b)(5) of this title of failure to provide
address and telephone information pursuant to this subparagraph.
(G)
(i) The time and place at which the proceedings will be held.
(ii) The consequences under section
1229a(b)(5) of this title of the failure, except
under exceptional circumstances, to appear
at such proceedings.
The full text of Sections 1229 and 1229b, together
with other relevant statutes and regulations, are reproduced in the Appendix, infra, at 43a-64a.
INTRODUCTION
This case concerns an acknowledged circuit conflict
concerning the immigration stop-time rule. Particularly deserving immigrants who have been in the
United States for specified periods of time can pursue cancellation of removal, a vital form of discretionary relief. The stop-time rule allows the government to stop immigrants from accruing additional
time in the United States for purposes of eligibility
for cancellation of removal, and potentially to cut
them off from even asking for discretionary relief.

4
To stop the time, the statute requires the government to take a specific action: the government must
“serve[] a notice to appear under section 1229(a).” 8
U.S.C. § 1229b(d)(1). That section, which governs
the initiation of removal proceedings, defines the
term “a ‘notice to appear’”: It is “written notice …
specifying” a particular set of information related to
the removal proceeding, including the “time and
place at which the proceedings will be held.” 8
U.S.C. § 1229(a)(1). The government resisted the notion that this statutory language defined a “notice to
appear,” but two Terms ago, this Court disagreed,
calling it “quintessential definitional language.” Pereira v. Sessions, 138 S. Ct. 2105, 2116 (2018).
The circuit conflict at issue arose because the government has consistently refused to do what section
1229(a) requires—but still seeks to invoke the stoptime rule to render immigrants ineligible for discretionary relief. Both the text and history of section
1229(a) show that section 1229(a) defines and requires a specific notice document that provides a
noncitizen being placed in removal proceedings with
all of the required information in one place. Indeed,
in enacting section 1229(a), Congress explicitly rejected a prior statutory provision that allowed service
of some of the required information—the time and
place of proceedings—in a separate document. Thus,
shortly after Congress enacted section 1229(a), the
government recognized that section 1229(a) requires
service of a specific form that provides all the specified information, including the time-and-place information. 62 Fed. Reg. 449 (Jan. 3, 1997). Inexplicably, however, the government has refused to do what
it conceded the statute required, and almost never

5
includes the time and place of proceedings in serving
notices to appear. See Pereira, 138 S. Ct. at 2111.
The government first attempted to avoid the stoptime consequences of this extra-statutory practice by
arguing that it can trigger the stop-time rule by serving a document it labels a “notice to appear,” regardless whether that document actually satisfies section
1229(a)’s definition of that term. The Board of Immigration Appeals (“BIA”) accepted the government’s
position, and a majority of the courts of appeals deferred to the BIA’s decision. See Pereira, 138 S. Ct.
at 2112-13, 2114 n.4. This Court, however, granted
certiorari and rejected the government’s position,
holding that the stop-time rule unambiguously requires notice “in accordance with” section 1229(a)’s
substantive, definitional requirements. 138 S. Ct. at
2117.
After Pereira, the government came up with a new
theory as to why its extra-statutory notice practice
triggers the stop-time rule. It now claims—contrary
to both its own and the BIA’s prior position—that “a
‘notice to appear’” in section 1229(a) is not actually a
specific notice document, but is merely a collection of
information that the government can provide in as
many notices, and over as much time, as the government chooses.
That argument has led to an entrenched conflict in
the courts of appeals. A closely divided BIA, in its
first en banc opinion in a decade, accepted the government’s position over a vigorous dissent. Three
courts of appeals have since rejected that decision
and held that section 1229(a) requires a specific notice document. Two courts of appeals, by contrast,

6
have accepted the government’s and BIA majority’s
position.
This Court should grant certiorari to resolve this
circuit conflict. Not only is the conflict entrenched,
and not only does it involve deep-seated disagreement that cannot be resolved without this Court’s
intervention, but the question on which the courts
are divided is incredibly important, as it could determine the fate of thousands of immigrant families—families like that of petitioner Agusto NizChavez, who seeks to remain in the country to care
for his three young, U.S.-citizen children, two of
whom have significant medical issues. A question
that arises with such frequency, and that has such
dramatic implications, should not turn on the happenstance of the immigration court in which removal
proceedings were brought.
STATEMENT
A.

The government must serve notice “in
accordance with” section 1229(a) to trigger the stop-time rule.

1. For more than a century, the immigration
laws have given the Attorney General (or another
official) discretion to allow deserving immigrants
with U.S. family connections to remain as lawful
permanent residents, even if they were otherwise inadmissible or removable. See, e.g., Immigration Act
of 1917, § 3, proviso 7, ch. 29, 39 Stat. 874, 878. As
one Congressional report explained, such provisions
are intended to protect “aliens of long residence and
family ties in the United States,” whose removal
“would result in a serious economic detriment to
the[ir] family.” S. Rep. No. 81-1515, at 600 (1950).

7
The current statute gives the Attorney General the
power to grant “cancellation of removal,” and a green
card, to eligible non-permanent residents when their
removal would cause “exceptional and extremely unusual hardship” to a spouse, parent, or child who is a
United States citizen or lawful permanent resident.
8 U.S.C. § 1229b(b). This discretionary relief is only
available to those with “good moral character” who
have not been convicted of specified criminal offenses. Id. The Attorney General can also cancel removal for permanent residents who have not been convicted of an aggravated felony when the equities favor allowing them to remain in the country. Id.
§ 1229b(a); Matter of Sotelo-Sotelo, 23 I. & N. Dec.
201, 203 (BIA 2001). Cancellation is one of the most
important tools for keeping immigrant families united and allowing immigrants who have made positive
contributions to their communities to remain in the
country.
To be eligible, an applicant for cancellation of removal as a non-permanent resident must have “been
physically present in the United States for a continuous period of not less than 10 years[.]” 8 U.S.C.
§ 1229b(b)(1). If the applicant is a lawful permanent
resident, the required period is 7 years of continuous
residence. Id. § 1229b(a)(2).1
2. Congress enacted the stop-time rule at issue in
this case to address a very specific problem with earlier forms of discretionary relief. Before 1996, when
eligibility for relief turned on a specified period of
U.S. residence, that period continued to run during
For simplicity, the term “continuous residence” is at times
used in this petition to encompass both durational requirements.
1

8
the pendency of removal proceedings. See Matter of
Cisneros-Gonzalez, 23 I. & N. Dec. 668, 671 (BIA
2004). Congress grew concerned that immigrants
had an incentive to obstruct and slow removal proceedings to satisfy the residence requirement. Id.
In response, Congress enacted the “stop-time” rule
as part of the Illegal Immigration Reform and Immigrant Responsibility Act (“IIRIRA”), Pub. L. 104-208,
Div. C, 110 Stat. 3009-546. Under this rule, “any period of continuous residence or continuous physical
presence in the United States shall be deemed to end
. . . when the alien is served a notice to appear under
section 1229(a) of this title.” 8 U.S.C. § 1229b(d)(1).
In other words, Congress gave the government the
power to end a non-citizen’s accrual of continuous
residence, but required that the government “serve[]”
a specific document—“a notice to appear under section 1229(a)”—in order to do so. See Pereira, 138 S.
Ct. at 2119 (“once a proper notice to appear is served,
the stop-time rule is triggered”).
3. The “notice to appear” was also created as part
of IIRIRA. Prior to 1996, what were then called deportation proceedings were initiated with “an ‘order
to show cause.’” See 8 U.S.C. § 1252b(a)(1) (1994).
The statute defined that document as “written notice
… specifying” particular information about the proceeding, including information like the “acts or conduct alleged to be in violation of law,” the “charges
against the alien and the statutory provisions alleged
to have been violated,” and the fact that the “alien
may be represented by counsel.” Id. Notably, however, the “order to show cause” did not need to identify “the time and place at which the proceedings will
be held”; that information could be provided “in the

9
order to show cause or otherwise.”
Id.
§ 1252b(a)(2)(A). This led to a two-step notice process, in which the government first served a noncitizen with an “order to show cause,” and the immigration court subsequently sent the time and place of
proceedings. See 8 C.F.R. § 242.1(b), 3.18 (1996).
In creating the “notice to appear” in IIRIRA, however, Congress rejected this flexibility and jettisoned
the two-step notice process. Concerned that existing
notice procedures led to unnecessary disputes about
whether noncitizens received certain notices, see
H.R. Rep. No. 104-469, pt. I, at 122, 159 (1996),
IIRIRA abandoned the option of sending a hearing
notice after the initial notice document, and required
that the “time and place at which the proceedings
will be held” be included in the “notice to appear” itself. See 8 U.S.C. § 1229(a)(1)(G)(i). The “notice to
appear” definition was otherwise practically identical
to the prior “order to show cause” definition. Compare 8 U.S.C. § 1252b(a)(1) (1994) with 8 U.S.C.
§ 1229(a)(1)(A)-(F).
The government initially recognized Congress’s rejection of the two-step notice process. Shortly after
IIRIRA was enacted, the Immigration and Naturalization Service (“INS”) and the Executive Office for
Immigration Review (“EOIR”) jointly issued a proposed rule to implement the new “notice to appear”
provision. A preamble to the regulations explained,
in a section entitled “The Notice to Appear (Form I862),” that the rule “implements the language of the
amended Act indicating that the time and place of
the hearing must be on the Notice to Appear,” and
recognized that the government would need “automated scheduling” to issue notices to appear with the

10
required time-and-place information. 62 Fed. Reg.
449. Consistent with that recognition, multiple BIA
decisions subsequently explained that a “notice to
appear” is a “single instrument,” Matter of Ordaz, 26
I. & N. Dec. 637, 640 n.3 (BIA 2015), and that subsequent notices, like “notice[s] of hearing,” are not “a
constituent part of a notice to appear,” Matter of
Camarillo, 25 I. & N. Dec. 644, 648 (BIA 2011).
The government, however, explicitly refused to do
what it conceded that section 1229(a) required. The
regulations that INS and EOIR ultimately adopted—
now codified at 8 C.F.R. § 1003.18—specifically authorized the very two-step process that IIRIRA rejected, stating that the “notice to appear” only needed
to include “the time, place and date of the initial removal hearing[] where practicable” (emphasis added).2
This regulatory exception ultimately swallowed the
statutory rule. Though the regulatory preambles
show that the exception was only intended to apply
in unusual circumstances like “power outages” or
“computer crashes/downtime,” see 62 Fed. Reg. 449,
by 2017 the government had begun omitting the
time-and-place information from “almost 100 percent” of its putative notices to appear. See Pereira,
138 S. Ct. at 2111.
4. Unwilling to accept the stop-time consequences of its conceded failure to comply with section
Notably, even this extra-statutory regulation suggests that
the government viewed a “notice to appear” as a single document. After all, if it were not, this regulation would be unnecessary, as the time-and-place information would be “in the Notice to Appear,” 8 C.F.R. § 1003.18(b), regardless when, and in
what document, it was served.
2

11
1229(a)’s requirements, the government claimed that
it could serve “a notice to appear under section
1229(a),” and hence trigger the stop-time rule, see 8
U.S.C. § 1229b(d)(1), even if the notice it served did
not comply with section 1229(a). The BIA agreed
with the government in Camarillo, concluding that
the phrase “notice to appear” “merely specifies the
document the DHS must serve on the alien to trigger
the ‘stop-time’ rule,” but does not impose any “substantive requirements” as to what must be in that
document. 25 I. & N. Dec. at 647. The BIA thus concluded that a document labeled as a “notice to appear” triggered the stop-time rule regardless whether it included the time and place of proceedings.
Seven of the eight courts of appeals to consider the
question deferred to the BIA. See Pereira, 138 S. Ct.
at 2113 & n.4.
In Pereira, however, this Court rejected the BIA’s
decision and held that the government must serve a
notice to appear “in accordance with” section
1229(a)’s requirements in order to trigger the stoptime rule. 138 S. Ct. at 2117. Section 1229(a), this
Court explained, uses “quintessential definitional
language” to define what a notice to appear is—i.e.,
“‘written notice’ that, as relevant here, ‘specif[ies] …
[t]he time and place at which the [removal] proceedings will be held.’” Pereira, 138 S. Ct. at 2116 (quoting 8 U.S.C. § 1229(a)(1)(G)(i)). Notice that does not
meet those definitional requirements is not “a proper
notice to appear,” and does not trigger the stop-time
rule. 138 S. Ct. at 2119-20. This Court therefore
held that the only relevant notice the government
had served on Mr. Pereira did not trigger the stoptime rule because it lacked the required time-andplace information.

12
Because the government did not serve a hearing
notice on Mr. Pereira until after he accrued the U.S.
presence required for cancellation, Pereira did not
explicitly address whether the government triggers
the stop-time rule when it completes its two-step notice process—in other words, when it serves both a
putative “notice to appear” that lacks the time-andplace information and a subsequent hearing notice.
But what Pereira definitively establishes is that such
a two-step notice process only triggers the stop-time
rule if it is “in accordance with” section 1229(a)’s definitional requirements. Id. at 2117.
B.

The courts of appeals are divided concerning section 1229(a)’s requirements.

After Pereira established that the government
must comply with section 1229(a) to trigger the stoptime rule, the government abruptly abandoned its
post-IIRIRA recognition that section 1229(a) defines
a specific notice document that must include the time
and place of proceedings. The government now
claims that section 1229(a) merely identifies information that the government must serve over the
course of as many documents, and as much time, as
the government chooses.
A sharply divided BIA, in its first en banc decision
in a decade, endorsed the government’s position, reversing its own prior position that a “notice to appear” is a “single instrument,” Ordaz, 26 I. & N. Dec.
at 640 n.3. Matter of Mendoza-Hernandez, 27 I. & N.
Dec. 520 (BIA 2019). Unsurprisingly given the sharp
dissent within the BIA, the courts of appeals are
again divided. The Seventh, Ninth, and Eleventh
Circuits have refused to defer to the BIA’s position

13
and held that section 1229(a) does not permit a multi-step notice process. Lopez v. Barr, 925 F.3d 396,
402-05 (9th Cir. 2019); Perez-Sanchez v. U.S. Attorney General, 935 F.3d 1148, 1153-54 (11th Cir. 2019);
Ortiz-Santiago v. Barr, 924 F.3d 956, 961-62 (7th
Cir. 2019). The Fifth and Sixth Circuits have accepted the BIA’s position. Pierre-Paul v. Barr, 930
F.3d 684, 690-91 (5th Cir. 2019); Garcia-Romo v.
Barr, 940 F.3d 192, 199-205 (6th Cir. 2019).
1. The BIA’s first post-Pereira discussion of section 1229(a) was in Matter of Bermudez-Cota, 27 I. &
N. Dec. 441 (BIA 2018). That decision concerned a
different issue raised by Pereira: whether a putative
notice to appear that lacks time-and-place information could vest subject matter jurisdiction in the
immigration court. The BIA held that nothing in the
statute makes compliance with section 1229(a) a prerequisite for the immigration court’s jurisdiction—a
holding that is not at issue here. But the BIA also
concluded in the alternative, with little analysis, that
section 1229(a) does not define a specific form of notice, and that “a two-step notice process is [thus] sufficient to meet the statutory notice requirements in
section [1229(a)].” Id. at 447.
The BIA reconsidered section 1229(a)’s requirements in its nine-to-six en banc decision in MendozaHernandez, which addressed section 1229(a)’s requirements in the context of the stop-time rule. A
slight majority of the BIA interpreted section 1229(a)
to allow the government to serve multiple notices
that, pieced together, provide all of the information
required by section 1229(a)’s definition of “a ‘notice to
appear.’” Id. at 531. The BIA concluded that although the statute’s reference to “a” notice to appear

14
“is in the singular,” the statute nevertheless does not
require that the notice come “in a single document.”
Id. Instead, “it may be provided in one or more documents—in a single or multiple mailings.” Id. The
BIA recognized that it had previously reached the
opposite conclusion, but reversed course with the almost entirely unexplained statement that its previous analysis was “flawed.” Id. at 525 & n.8.
Six Board Members dissented, concluding that the
majority’s position is irreconcilable with the statute’s
text and history. Id. at 536 (Guendelsberger, Board
Member, dissenting). The dissent explained that
“the statute contains no ambiguity or gap that would
permit a ‘combination’ approach to trigger the stop
time rule,” as the “statute refers to a single document, ‘a notice to appear[.]’” Id. Thus the plain language, even on its own, “leaves no room for the majority’s conclusion that a subsequent notice of hearing can cure a notice to appear that fails to specify
the time and place of the initial removal hearing.”
Id. at 545. Moreover, the majority’s position flies in
the face of IIRIRA, which explicitly rejected the twostep process, mandating instead “a one-step ‘notice to
appear.’” Id. at 539. The two-step process therefore
cannot be “in accordance with” section 1229(a), and
does not trigger the stop-time rule.
2. Three courts of appeals have already rejected
the BIA majority’s position as conflicting with section
1229(a)’s unambiguous command.
The Ninth Circuit, in Lopez, rejected the BIA’s decision because section 1229(a) “speaks clearly” and
requires “service of a single document—not multiple.” 925 F.3d at 402. Section 1229(a) “defines what
a notice to appear is,” and that definition explicitly

15
“use[s] the singular” in referring to the notice required. Id. at 402-03. The court concluded that the
BIA majority reached a contrary decision only by
“ignor[ing] the plain text of the statute.” Id. at 403.
Moreover, as the court noted, nothing stopped the
government from “issu[ing] a Notice that complies
with the statute”—thus, any stop-time issues with
this interpretation of section 1229(a) lie squarely
with the government’s refusal to adhere to the statute’s commands. Id. at 404 (citing Pereira, 138 S. Ct.
at 2111). Judge Callahan dissented. She argued
primarily that, under the Dictionary Act, 1 U.S.C.
§ 1, the singular reference to “a” notice to appear can
encompass several notices. Id. at 407 (Callahan, J.,
dissenting).3
The Eleventh Circuit reached the same conclusion
in Perez-Sanchez, albeit in a slightly different context. The question in that case, like the BIA’s decision in Bermudez-Cota, was whether the two-step notice process gives the immigration court jurisdiction
over removal proceedings. Perez-Sanchez, 935 F.3d
at 1152-53. The case therefore first raised the question of whether the two-step process complies with
section 1229(a)—the precise question at issue in this
case. And it also raised the question of whether,
even if the two-step process does not comply with
section 1229(a), that lack of compliance has jurisdictional implications.
In answering that first question, the Eleventh Circuit explicitly rejected the government’s claim that a
The government’s petition for rehearing en banc in Lopez has
been pending since August 7, 2019. On November 12, 2019, the
panel called for supplemental briefing, which has been completed.
3

16
hearing notice can cure an otherwise-defective notice
to appear. Id. at 1153. Like the Ninth Circuit, the
Eleventh Circuit held that, under the statute’s plain
text, the relevant inquiry focuses on a single notice
document. Thus, “a notice of hearing sent” after a
defective “notice to appear” “does not render the original NTA non-deficient.”4 935 F.3d at 1153-54.
In Ortiz-Santiago, the Seventh Circuit confronted
the same question in the same posture and reached
the same conclusion. The court refused to accept the
government’s argument that “the two-step procedure
that the Board followed” was “compatible with the
statute.” 924 F.3d at 962. The court rejected the
BIA majority’s argument that the two-step process
“achieves substantial compliance with” section
1229(a), explaining that the BIA majority’s analysis
“tracked the dissenting opinion [in Pereira] rather
than that of the majority.” Id. The court also found
it “telling that Congress itself appears to have rejected the two-step approach when it passed IIRIRA.”
Id. The court noted that the BIA “took no note of
this statutory evolution … nor did it explain how its
decision complied with the present statutory language.” Id.5

The Eleventh Circuit ultimately held that section 1229(a) establishes a “claim-processing rule” rather than a prerequisite to
jurisdiction, and hence that the government’s failure to follow
section 1229(a) does not deprive the immigration court of jurisdiction. Id. at 1154-57.
5 The Seventh Circuit rejected the argument that the government’s “failure to comply was an error of jurisdictional significance,” concluding, like the Eleventh Circuit, that section
1229(a) establishes a claim-processing, not jurisdictional, rule.
Id. at 963-64.
4

17
3. Two courts of appeals have accepted the BIA’s
position that section 1229(a) merely establishes a list
of information that the government can serve over as
many notices, and as much time, as it chooses.
The Fifth Circuit’s decision in Pierre-Paul was the
first to accept the BIA’s position.6 That case, like the
Seventh and Eleventh Circuit decisions, involved a
challenge to the immigration court’s jurisdiction.
But like the Seventh and Eleventh Circuit decisions,
the Fifth Circuit’s decision squarely addressed section 1229(a)’s requirements. Unlike those decisions,
however, the Fifth Circuit concluded that “[t]he twostep process comports with relevant statutory language.” 930 F.3d at 691. Largely adopting the reasoning of Judge Callahan’s dissent in Lopez, the
court concluded that the singular nature of the statutory language nevertheless encompassed the concept of multiple notices. Id. The court also adopted
the BIA majority’s conception of the statute’s purpose of “ensuring that aliens receive notice of the
time and place of the proceedings.”7 Id.
The Sixth Circuit reached the same conclusion, in
the cancellation context, in Garcia-Romo. The court
found the Ninth Circuit’s decision in Lopez “unpersuasive,” adopting instead the BIA majority’s decision in Mendoza-Hernandez. 940 F.3d at 203-05.
The court rejected the argument that the statute
“mandates service of a singular, compliant docuA petition for certiorari from the Fifth Circuit’s decision is
currently pending. Pierre-Paul v. Barr, No. 19-779 (filed Dec.
16, 2019).
7 The court also concluded that, even if section 1229(a) requires
a single notice document, the government’s failure to comply
with that requirement is not jurisdictional. Id. at 691-93.
6

18
ment,” concluding that this gives too “cramped” a
reading to “the indefinite article ‘a.’” Id. at 201.
Based on two colloquial examples—a teacher requiring “a paper” and a book editor asking an author for
“a book”—the court concluded that “[w]hen the word
‘a’ precedes a noun such as ‘notice,’ describing a written communication, the customary meaning does not
necessarily require that the notice be given in a single document.” Id. Thus, section 1229(a) allows the
government to provide the required information “in
multiple components or installments.”8 Id.
Notably, a subsequent Sixth Circuit panel has already criticized Garcia-Romo for its “scant textual
analysis,” and noted that, “given the conflicts among
the circuits, the time may be ripe for Supreme Court
review.” Dable v. Barr, __ Fed. Appx. __, 2019 WL
6824856, at *4 n.6 (6th Cir. Dec. 13, 2019).
C.

Mr. Niz-Chavez’s eligibility for
cancellation of removal turns on this
circuit conflict.

1. Petitioner Agusto Niz-Chavez is a native and
citizen of Guatemala. Mr. Niz-Chavez and his family
lived on land that they owned until around 2002. A
that time, a land dispute arose between Mr. NizChavez’s family and villagers from Ixchiguan, a
neighboring village. Pet. App. 2a. The Ixchiguan villagers first murdered Mr. Niz-Chavez’s brother-inlaw. Pet. App. 2a. Then fifty armed villagers arrived
and threatened to kill Mr. Niz-Chavez and his family
if they did not leave. Pet. App. 2a-3a. Mr. NizChavez and his family fled and have not returned.
A petition for rehearing en banc is currently pending in Garcia-Romo.
8

19
Pet. App. 3a. Nevertheless, Mr. Niz-Chavez’s family
continued to receive threats. Pet. App. 3a.
Mr. Niz-Chavez came to the United States in 2005.
Pet. App. 3a. In 2007, he moved to Detroit, where he
has lived ever since. Pet. App. 3a. He currently lives
with and is the primary breadwinner for his longtime partner and their three young U.S.-citizen children, two of whom have significant health issues.
Pet. App. 3a; A.R. 34-35. Since coming to the United
States fourteen years ago, Mr. Niz-Chavez has no
criminal history other than two misdemeanor convictions for driving without a license.
2. On March 26, 2013, DHS served Mr. NizChavez with a document labeled “Notice to Appear.”
Pet. App. 3a; A.R. 425. That document, however, did
not specify the time and place at which Mr. NizChavez was required to appear, stating instead that
the hearing would be held on “a date to be set at a
time to be set.” A.R. 425; Pet. App. 3a. On May 29,
2013, the immigration court sent Mr. Niz-Chavez a
hearing notice scheduling his case for June 25, 2013.
Pet. App. 3a. Mr. Niz-Chavez conceded removability
but sought to apply for withholding of removal and
relief under the Convention Against Torture. Pet.
App. 3a. A merits hearing was ultimately held on
September 13, 2017.
At his merits hearing, Mr. Niz-Chavez sought to
apply for cancellation of removal given that he had
been present in the United States for approximately
twelve years. Pet. App. 42a. However, the immigration judge (“IJ”) concluded, and Mr. Niz-Chavez was
forced to concede, that under then-governing law,
Mr. Niz-Chavez’s continuous presence ended when
he received the putative “Notice to Appear” in March

20
2013, even though that document did not comply
with section 1229(a) because it lacked the required
time-and-place information. See Camarillo, 25 I. &
N. Dec. at 647; Gonzales-Garcia v. Holder, 770 F.3d
431 (6th Cir. 2014) (deferring to Camarillo).
The IJ ultimately denied Mr. Niz-Chavez’s applications for relief, and Mr. Niz-Chavez appealed to the
BIA. While his case was pending before the BIA,
this Court decided Pereira. Mr. Niz-Chavez promptly filed a motion to remand to the IJ to consider his
application for cancellation of removal in light of Pereira. Pet. App. 4a. The BIA affirmed the IJ’s decision and denied the motion to remand, concluding
that Mr. Niz-Chavez was not eligible for cancellation
under Pereira because the combination of the putative notice to appear with the subsequent hearing
notice triggered the stop-time rule in June 2013.
Pet. App. 4a, 22a.
3. The Sixth Circuit denied the petition for review. As relevant here, the court acknowledged the
conflict between the courts of appeals concerning
whether “multiple documents [can] collectively satisfy the requirements of a notice to appear.” Pet. App.
13a-14a. The court recognized, however, that the
Sixth Circuit had “resolved the dispute” in GarciaRomo. Pet. App. 14a-15a.
REASONS FOR GRANTING THE WRIT
The Court should grant certiorari to resolve the
circuit conflict concerning whether section 1229(a)’s
definition of “a ‘notice to appear’” identifies a specific
notice document or merely a collection of information
that the government can provide over the course of
as many documents, and as much time, as it chooses.

21
Given that, under Pereira, notice “in accordance
with” section 1229(a) is necessary to trigger the stoptime rule, the proper interpretation of section
1229(a) is vitally important, as it determines whether thousands of immigrants are eligible for cancellation of removal and will have the chance to remain in
the country with their U.S.-citizen families. Moreover, given the deep disagreement about the proper
interpretation of section 1229(a)—including a threeto-two circuit conflict and sharp disagreement within
circuits and within the en banc BIA—this Court’s intervention is necessary to ensure uniform eligibility
requirements for this vital form of relief.
Certiorari is particularly important because the
BIA’s reading of the statute conflicts so clearly with
the statute’s text and history. Not only does the
statute’s singular definitional language plainly require “a” specific notice document—not a collection of
notice documents dispersed over time—but Congress
amended the statute to reject the previouslyauthorized multi-step notice process the government
now seeks to defend.
This case is an ideal vehicle to resolve the circuit
conflict. Mr. Niz-Chavez has preserved the question
presented throughout his proceedings. As the Sixth
Circuit’s decision makes clear, Mr. Niz-Chavez is
otherwise eligible to apply for cancellation of removal. And Mr. Niz-Chavez has a strong case for cancellation on the merits: He is the primary breadwinner
for his three young, U.S.-citizen children, two of
whom rely on the U.S. health-care and educational
systems to assist with significant medical and developmental issues.

22
I.

The Court should grant certiorari to resolve a circuit conflict on an important
and recurring issue concerning eligibility
for cancellation of removal.

The acknowledged circuit conflict concerning the
question presented in this case cannot be resolved
without this Court’s intervention—indeed, one court
has explicitly called for this Court’s review. Dable,
2019 WL 6824856, at *4 n.6. Given how frequently
the question presented arises, the confusion it is currently causing across the country, and how important it is when it does arise, this Court should
grant certiorari now to resolve the conflict.
1. There is a clear circuit conflict concerning
whether section 1229(a) defines a specific notice document or a collection of information the government
can serve whenever and in as many pieces as it
wants. The Seventh, Ninth, and Eleventh Circuits
have agreed with the six-Member BIA dissent and
held that section 1229(a) defines a specific notice
document, and hence that a two-step notice process
does not comply with section 1229(a)’s requirements.
Pp. 14-16, supra. The Fifth and Sixth Circuits, by
contrast, have accepted the nine-Member BIA majority’s view that section 1229(a) permits a multi-step
notice process. Pp. 17-18, supra. The five circuits
that have addressed this issue handle the vast majority—approximately 75%9—of petitions for review
from the BIA.

See U.S. Courts, Judicial Business, Table B-3 (2018), available
at http://www.uscourts.gov/sites/default/files/data_tables/jb_b3_
0930.2018.pdf.
9

23
The fact that some of these courts interpreted section 1229(a) in the context of a jurisdictional rather
than stop-time challenge does not minimize the circuit conflict. Under Pereira, the government must
serve notice “in accordance with” section 1229(a) to
trigger the stop-time rule. 138 S. Ct. at 2117. Thus,
the question of whether section 1229(a) permits the
government’s multi-step notice process is determinative of the stop-time question regardless of the context in which that interpretive question arose.
Moreover, the conflicting Sixth and Ninth Circuit
opinions both interpreted section 1229(a) in the context of the stop-time rule.
This circuit conflict inevitably leads to deeply unfair results. If Mr. Niz-Chavez lived in California or
Illinois, he could have applied for cancellation of removal and sought to stay in the United States to continue to care for his U.S.-citizen children. Indeed,
given that venue in immigration cases depends on
where the government initiates removal proceedings,
8 U.S.C. § 1252(b)(2); 8 C.F.R. § 1003.14(a), Mr. NizChavez may have been able to apply for cancellation
if he had been detained by DHS while on a road trip
in Chicago, rather than at home in Detroit. Only
this Court can alleviate the inevitable inequities
caused by the disparate interpretations of the stoptime rule across the circuits.
2. This circuit conflict will not resolve without
this Court’s intervention. The Ninth Circuit rejected
the BIA’s position shortly after Mendoza-Hernandez
was decided. Lopez, 925 F.3d at 402. The Seventh
and Eleventh Circuits then reached the same conclusion. Pp. 14-16, supra. The Sixth Circuit’s contrary
decision expressly considered, and rejected, the

24
Ninth Circuit’s reasoning, Garcia-Romo, 940 F.3d at
203-04, joining the Fifth Circuit in accepting the
BIA’s decision. Pp. 17-18, supra. Thus, in order for
this circuit conflict to resolve, at least two courts of
appeals would have to reverse their own, published
decisions.
The likelihood that the circuit conflict would resolve is particularly unlikely given the depth of the
disagreement on the question presented. The proper
interpretation of section 1229(a) so deeply divided
the agency that it led to the first en banc BIA decision in a decade—a decision that ultimately turned
on the votes of two of its fifteen Members. There has
also been disagreement within both the Ninth and
Sixth Circuits, with Judge Callahan dissenting from
the Ninth Circuit’s decision in Lopez, see 925 F.3d at
405-10, and a subsequent Sixth Circuit panel criticizing Garcia-Romo and explicitly calling for this
Court’s review, Dable, 2019 WL 6824856, at *4 n.6.
Given this disagreement, it is practically inevitable
that this Court will, at some point, have to resolve
the question presented in this case.
3. Prompt review of the question presented is vital given the frequency with which it arises and its
importance when it does arise. In any case in which
the government follows its multi-step notice practice,
the question presented will determine cancellation
eligibility so long as the cancellation applicant has no
disqualifying criminal convictions and, absent the
stop-time rule, satisfies the applicable ten- or sevenyear presence or residence requirement. And, in recent years, the government has almost never provided any notice document that itself complies with section 1229(a). Pereira, 138 S. Ct. at 2111. Thus, even

25
the government has recognized that the question
presented in this case “has profound ramifications
for thousands of immigration cases.” Pet. For Reh’g
at 1, Lopez v. Barr, 925 F.3d 396 (9th Cir. 2019) (No.
15-72406). Prompt resolution of a circuit conflict
that impacts so many cases is vital to prevent deep
unfairness and prevent significant confusion concerning individuals’ cancellation eligibility.
Moreover, when the question presented does determine cancellation eligibility, it will often determine whether families with U.S.-citizen spouses and
children can remain intact. The immigrants affected
by this rule are those who could obtain cancellation
on the merits, if only they were found eligible—
permanent residents who have made positive contributions to their community, and longtime nonpermanent residents with good records, good character, and a spouse, parent, or child who is a citizen or
lawful permanent resident. 8 U.S.C. § 1229b(a),
(b)(1). By definition, rendering ineligible a nonpermanent resident who would otherwise qualify
would work “exceptional and extremely unusual
hardship”—on children separated from a parent, on a
husband or wife separated from a spouse. Id.
§ 1229b(b)(1)(D).
Only this Court can resolve the conflict on this frequently-recurring issue and prevent the conflicting
circuit decisions from separating families arbitrarily—and erroneously.
4. The question this Court is currently considering in Barton v. Barr, No. 18-725, is unrelated to the
question presented in this case, and provides no reason to delay review of the independent and vitally
important question presented here. Barton concerns

26
a criminal bar to cancellation of removal, not its durational requirements. The question presented here
warrants prompt review regardless how this Court
decides Barton.
II.

Certiorari is particularly important because the BIA majority’s interpretation is
wrong.

The circuit conflict at issue in this case is particularly pernicious because section 1229(a)’s text and
history so plainly require a specific notice document.
Moreover, the agency’s decision was not a reasonable
one—among other things, the BIA departed from its
own prior recognition that section 1229(a) does require a single notice document without any meaningful explanation.
A. Section 1229(a)’s text and history unambiguously require a specific notice document,
not service of the listed information however and whenever the government chooses.
The BIA majority’s conclusion that the government’s multi-step notice process is “in accordance
with” section 1229(a)’s requirements is not a permissible interpretation of the statute, read using “traditional tools of statutory construction,” Chevron USA,
Inc. v. Nat. Res. Defense Council, Inc., 467 U.S. 837,
842-43 & n.9 (1984), such as the statute’s “text,
structure, history, and purpose,” Kisor v. Wilkie, 139
S. Ct. 2400, 2415 (2019). The BIA’s decision ignores
the statute’s text and flies in the face of Congressional amendments explicitly rejecting the very multi-step notice process the BIA endorsed.

27
1. As this Court held in Pereira, section 1229(a)
uses “quintessential definitional language” to define
what “a ‘notice to appear’” is. Pereira, 138 S. Ct. at
2116. “[A] ‘notice to appear’” is “written notice …
specifying” the seven pieces of information listed in
the statute, including, for instance, the “charges
against the alien,” the “acts or conduct alleged to be
in violation of law,” the “time and place at which” to
appear to defend against those charges, and the right
to be represented by counsel. 8 U.S.C. § 1229(a)(1)
(emphasis added). Notice that does not provide the
required information does not meet section 1229(a)’s
definition, is not “in accordance with” section
1229(a), and does not trigger the stop-time rule.
Nothing in the statute suggests that different notices, served at different times, and even by different
government agencies, can combine to create “a ‘notice to appear.’” The statute does not simply state
that the government shall provide written notice of
the specified information. Nor does it state that “a
‘notice to appear’ is ‘complete’ when it specifies” the
last piece of required information. Pereira, 138 S. Ct.
at 2116. Instead, the statute uses “quintessential
definitional language” to create a specific, singular
statutory term—“a ‘notice to appear’”—and defines
that term as “written notice … specifying” the required information. Because “the use of the singular
indicates that service of a single document—not multiple—triggers the stop-time rule,” Lopez, 925 F.3d at
402, the “statute contains no ambiguity or gap that
would permit a ‘combination’ approach to trigger the
stop time rule,” Mendoza-Hernandez, 27 I. & N. Dec.
at 539 (Guendelsberger, Board Member, dissenting).

28
2. The history of section 1229(a) removes any
possible doubt that the singular nature of the phrase
“a ‘notice to appear’” was intentional, identifying a
specific notice document not a collection of information that the government can provide over as
many documents, and as much time, as it chooses.
As discussed, pp. 8-10, supra, prior to 1996, what
were then called deportation proceedings were initiated with “an ‘order to show cause.’” 8 U.S.C.
§ 1252b(a)(1) (1994). The pre-1996 statute defined
“an ‘order to show cause’” in almost the exact same
way that section 1229(a) currently defines “a ‘notice
to appear.’” The difference, however, was that the
definition of “an ‘order to show cause’” did not require notice of the “time and place” of proceedings;
that information could be provided “in the order to
show cause or otherwise.” 8 U.S.C. § 1252b(a)(2)(A)
(1994) (emphasis added).
The fact that the pre-1996 statute specified that
the time-and-place information could be provided either “in the order to show cause” itself “or otherwise”
plainly demonstrates that the “order to show cause”
was a single document. After all, if the information
in the “order to show cause” definition could be provided in as many different notices as the government
chose, then the distinction between providing the
time-and-place information “in the order to show
cause” and providing that information in an “other[]”
document would have been meaningless. The pre1996 statute therefore plainly authorized either a
one- or two-step notice process, but it did not authorize dividing “an ‘order to show cause’” itself into multiple pieces.

29
Congress’s 1996 amendments to the statute in
IIRIRA—which moved the time-and-place information from an optional part of the “order to show
cause” to a required part of the “notice to appear”—
plainly rejected the two-step process and required a
one-step process. First, given that “an ‘order to show
cause’” was a single document, and that section
1229(a) uses the same definitional structure as the
pre-IIRIRA provision, a “notice to appear” must necessarily be a single notice document as well. Second,
interpreting “a ‘notice to appear’” to mean simply a
collection of information would render meaningless
IIRIRA’s amendments making time-and-place information a required, not optional, part of the “notice to
appear”—under the BIA’s interpretation, that
amendment did not change the government’s service
requirements at all. Unsurprisingly, then, in postIIRIRA regulatory preambles, the government itself
recognized that IIRIRA changed the statute to require a single notice document. Pp. 9-10, supra.
Notably, the only decisions to actually engage with
this history have correctly understood it to require
interpreting section 1229(a) as defining a single notice document. Ortiz-Santiago, 924 F.3d at 962;
Mendoza-Hernandez, 27 I. & N. Dec. at 539 (Guendeslberger, Board Member, dissenting). Despite the
prominent role this history played in the BIA dissent
and Seventh Circuit decisions, not one of the opinions
that have interpreted “a ‘notice to appear’” to allow
for a multi-step notice process—including even the
BIA majority in Mendoza-Hernandez—has even tried
to reconcile its interpretation with this history.
3. Rather than acknowledge section 1229(a)’s origins or engage with its text, the BIA majority in

30
Mendoza-Hernandez focused almost entirely on what
it conceived to be section 1229(a)’s “fundamental
purpose”: to “create[] a reasonable expectation of the
alien’s appearance at the removal proceeding.” Mendoza-Hernandez, 27 I. & N. Dec. at 531. But if Pereira stands for anything, it is that the agency cannot
ignore Congress’s instructions in favor of the agency’s own conception of the statute’s purpose—i.e., the
agency cannot substitute its own belief as to how the
statute should work for how the statute does work.
Moreover, the BIA’s conception of section 1229(a)’s
“fundamental purpose” is transparently incomplete.
Ensuring appearance is certainly one “essential function” of a “notice to appear.” Pereira, 138 S. Ct. at
2115. But if that were its only purpose then its requirements would begin and end with telling an immigrant when and where to appear. The fact that
the statute also requires information about the
charges being brought and the nature of the proceeding shows that the purpose of “a ‘notice to appear’” is
not just to ensure any appearance, but a meaningful
appearance in which a noncitizen can defend herself.
As to that purpose, the BIA majority’s multi-step
approach is deeply flawed. Because the information
required by section 1229(a) all relates to the institution of a single removal proceeding, it only makes
sense when it is received together. Allowing the government to serve that information in different notices, at vastly different times, will frustrate, not promote, noncitizens’ appearance at and the efficiency of
removal proceedings.
Concern about notices separated over time is not
merely hypothetical. In both Camarillo and Pereira,
the government initially served a putative notice to

31
appear that lacked time-and-place information, and
then did nothing for more than a year (more than two
years in Camarillo). Pereira, 138 S. Ct. at 2112;
Camarillo, 25 I. & N. Dec. at 644-45 & n.1. The government then sent a notice document that provided
only the time and place of a required appearance,
without tying the required appearance to the prior
charges. A noncitizen receiving a notice instructing
her to appear in immigration court at a specific place
and time would not necessarily connect that instruction to charges served more than a year earlier.
Indeed, the BIA’s decision would allow for notice
processes that are far more confusing even than that.
For instance, it would allow the government to provide every noncitizen entering the country with a
written overview of removal proceedings—including
the fact that those in removal proceedings have a
right to counsel, must provide the Attorney General
with their address and telephone number, and suffer
certain consequences if they do not appear at their
proceedings, see 8 U.S.C. § 1229(a)(1)(E), (F)(i),
(G)(ii)—and then omit that critical information from
the notice it provides years later at the outset of an
actual removal proceeding. That is plainly not what
section 1229(a) envisions.
The multi-step notice practice also conflicts with
the precise concern Congress identified when rejecting the two-step notice process in IIRIRA: avoiding
disputes about proper service of multiple notice documents. H.R. Rep. No. 104-469, pt. I, at 122, 159; see
also Mendoza-Hernandez, 27 I. & N. Dec. at 539
(Guendelsberger, Board Member, dissenting). This,
too, is no hypothetical. In Pereira, for instance,
though the government properly served the initial

32
notice (which lacked the time-and-place information),
it mailed the subsequent hearing notice to the wrong
address. 138 S. Ct. at 2112.
4. Unlike the BIA majority, the Sixth Circuit in
Garcia-Romo did engage with the statute’s text—
though not its history. But, as a subsequent Sixth
Circuit panel recognized, the court’s “scant textual
analysis” was deeply flawed.
Dable, 2019 WL
6824856, at *4 n.6.
The Court’s analysis turned almost entirely on two
colloquial examples: a student submitting “a paper”
by sending the introduction and body of the paper
first, and sending a conclusion later; and a writer
providing a publisher with “a book” by sending chapters sequentially. 940 F.3d at 201. According to the
court, these examples show that “the use of the indefinite article ‘a’ before a word that describes written communication does not necessarily mean that
delivery of the message must be in one transmission.” Id.
Even on its own, colloquial terms, this analysis is
questionable at best. No student required to submit
“a paper”—where that phrase is defined to require
an introduction, a body, and a conclusion—would
think that the professor envisioned students submitting three separate documents, at different times,
each with a different section of his or her paper. The
Sixth Circuit effectively admitted as much, describing a student who “neglects” to submit a conclusion
and only later “discovers” that it was missing. Id. A
professor confronting such a neglectful student might
not penalize the student for failing to submit the paper “in accordance with” her requirements. But, under Pereira, the statute is not so forgiving. If a pur-

33
ported “notice to appear” is not “in accordance with”
section 1229(a), it does not trigger the stop time rule;
there is no provision for curing defects. 138 S. Ct. at
2117. Congress’s instruction that the government
serve “a ‘notice to appear’” plainly envisions service
of a single notice, just as a professor’s assignment of
“a paper” plainly envisions students submitting a
single document.
Moreover, even if the Sixth Circuit were right that
in certain, colloquial contexts the word “a” before a
written document could actually encompass multiple
documents, that does not mean that such a reading
would be permissible in this context. Pereira, 138 S.
Ct. at 2117. There are numerous examples, even just
in court rules, of documents that must contain certain information that plainly cannot be provided seriatim. For instance, this Court’s Rule 24 requires
that “[a] brief” include the information specified in
paragraphs (a) through (j). No party could reasonably read this rule to allow the submission of each
piece of required information in a separate document
filed at a different time. The singular nature of the
notice required by section 1229(a) is even clearer given the “quintessential definitional language” Congress used to define the singular term “a ‘notice to
appear.’” Pereira, 138 S. Ct. at 2116.
B. The agency’s interpretation is not a reasonable one.
1. The BIA’s decision in Mendoza-Hernandez also
departs from the agency’s prior position without adequate explanation. See Encino Motorcars, LLC v.
Navarro, 136 S. Ct. 2117, 2126 (2016) (agency position is “unlawful and receives no Chevron deference”

34
if it rests on an “unexplained inconsistency in agency
policy”).
Before Pereira, the BIA had rejected the argument
that multiple documents could be considered together in analyzing whether the government had served
“a ‘notice to appear.’” For instance, in Camarillo, the
BIA wrote that “[n]o authority … supports the contention that a notice of hearing issued by the Immigration Court is a constituent part of a notice to appear[.]” 25 I. & N. Dec. at 648. The BIA made the
same point in Ordaz, concluding that “[t]he statute
affords ‘stop-time’ effect to a single instrument—the
notice to appear that is the subject of proceedings in
which cancellation of removal is sought.” 26 I. & N.
Dec. at 640 n.3 (emphasis added).
The BIA majority in Mendoza-Hernandez recognized these holdings, but barely tried to justify its
reversal. In a footnote, it characterized its prior decisions as “flawed” because, while a “notice of hearing
is not part of the notice to appear,” it is a “separate
notice, served in conjunction with the notice to appear, that satisfies the requirements of section
[1229(a)(1)(G)].” 27 I. & N. Dec. at 525 n.8 (emphasis
added). If anything, this statement undermines the
BIA’s position, as it recognizes that a notice of hearing is not part of the notice to appear. Such an unjustified about-face is inherently unreasonable. Encino Motorcars, 136 S. Ct. at 2126.
2. The BIA’s position is also not reasonable even
putting aside its change of position. Not only does it
conflict with the statute’s text and history, pp. 26-33,
supra, it is, like its prior decision in Camarillo, a
barely-disguised attempt to find a way for the government to avoid the stop-time consequences of its

35
refusal to adhere to Congress’s decision to jettison
the two-step notice process. Rather than engage
with the statute’s text or history, the BIA majority—
like the Camarillo panel—simply made up a statutory “purpose” that allowed the government to follow
its extra-statutory regulation requiring time-andplace information in a “notice to appear” only “when
practicable,” 8 C.F.R. § 1003.18(b), without suffering
any stop-time consequences. Mendoza-Hernandez,
27 I. & N. Dec. at 532; Camarillo, 25 I. & N. Dec. at
648. It is plainly not reasonable for an agency to
twist the statute’s language to allow the government
to comply with a regulation that conflicts with the
statute itself—making optional what the statute
makes mandatory.
III.

This case is an ideal vehicle to resolve
the circuit conflict.

1. Throughout his removal proceedings, Mr. NizChavez has preserved his argument that he is eligible for cancellation of removal. He tried to apply for
cancellation before the IJ, but was forced to recognize, based on then-governing BIA and Sixth Circuit
precedent, that the putative “Notice to Appear” he
received in March 2013 triggered the stop-time rule
even though it did not include the time and place at
which he was required to appear. Pet. App. 42a;
Camarillo, 25 I. & N. Dec. at 647; Gonzales-Garcia,
770 F.3d at 435.
This Court decided Pereira while Mr. Niz-Chavez’s
appeal was pending before the BIA. After this
Court’s decision, Mr. Niz-Chavez asked the BIA to
remand to the IJ, arguing that he is, in fact, eligible
for cancellation of removal under this Court’s deci-

36
sion. Pet. App. 4a. The BIA denied that motion
based on its conclusion that the combination of the
putative “Notice to Appear” and subsequent hearing
notice together constitute “a ‘notice to appear’” in accordance with section 1229(a). Pet. App. 22a.10 Mr.
Niz-Chavez challenged this decision before the Sixth
Circuit, which denied his petition for review on this
issue entirely because the Sixth Circuit had adopted
the BIA’s approach in Garcia-Romo. Pet. App. 14a15a.
2. The question whether the combination of the
putative “Notice to Appear” and a subsequent hearing notice collectively constitute “a ‘notice to appear’”
that is in accordance with section 1229(a) is dispositive of Mr. Niz-Chavez’s eligibility for cancellation of
removal. It is undisputed that Mr. Niz-Chavez never
received any single notice document that complies
with section 1229(a)’s requirements. It is similarly
undisputed that Mr. Niz-Chavez has three U.S. citizen children. See id. § 1229b(b)(1)(D); Pet. App. 3a.
Mr. Niz-Chavez is a devoted father, and his removal
would undoubtedly cause his children “exceptional
and unusual hardship.” Id. Mr. Niz-Chavez has no
disqualifying
criminal
convictions
under
§ 1229b(b)(1)(C)—indeed, he has no meaningful criminal history at all—and can demonstrate “good moral
character,” see id. § 1229(b)(1)(B).
3. Mr. Niz-Chavez has a strong case that the Attorney General should cancel his removal. Mr. NizThe BIA also wrote that Mr. Niz-Chavez “did not seek cancellation of removal before the Immigration Judge.” Pet. App. 22a.
That is simply not true—Mr. Niz-Chavez did seek to apply for
cancellation, but was forced to recognize that his application
was barred by then-controlling precedent. Pet. App. 42a.
10

37
Chavez is the breadwinner for his family, including
his three U.S.-citizen children, who are one, five and
six years old. Pet. App. 3a. His one-year-old daughter was born two months prematurely, spent months
in the neonatal intensive care unit, and still requires
significant respiratory support and regular medical
attention.11 His five-year-old daughter suffers from
an eye muscle problem called Brown’s Syndrome, as
well as speech and language delays, for which she is
receiving assistance through the Matrix Head Start
program in Detroit. A.R. 36-37. Mr. Niz-Chavez
could introduce significantly more evidence if granted the opportunity to apply for cancellation.
* * * * *
Had Mr. Niz-Chavez been brought into immigration court in Chicago, rather than Detroit, he could
apply for cancellation of removal, and likely remain
in the United States with his family. This Court
should not allow such geographic happenstance to
determine the fate of his family and families across
the country.

Mr. Niz-Chavez’s youngest daughter was born after the agency proceedings were complete, but evidence of her birth and
medical issues are in the Sixth Circuit record. Niz-Chavez C.A.
Mot. for Stay of Removal 4-5 & Ex. B.
11

38
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
SUFEN HILF
HILF & HILF, PLC
1775 W. Big Beaver Rd.
Troy, MI 48084

DAVID J. ZIMMER
Counsel of Record
GOODWIN PROCTER LLP
100 Northern Ave.
Boston, MA 02210
dzimmer@goodwinlaw.com
(617) 570-1000
Counsel for Petitioner

APPENDIX

1a
APPENDIX A
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
Case No. 18-4264
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
AGUSTO NIZ-CHAVEZ,
Petitioner,
v.
WILLIAM P. BARR, Attorney General,
Respondent
ON PETITION FOR REVIEW FROM THE UNITED
STATES BOARD OF IMMIGRATION APPEALS
OPINION
FILED: Oct. 24, 2019
DEBORAH S. HUNT, Clerk
BEFORE: COLE, Chief Judge; MERRITT and
LARSEN, Circuit Judges
COLE, Chief Judge. Agusto Niz-Chavez, a
Guatemalan native and citizen, arrived in the United
States without inspection in 2005. Immigration
proceedings concerning Niz-Chavez commenced in
2013. Niz-Chavez applied for withholding of removal
under the Immigration and Nationality Act and for

2a
relief under the Convention Against Torture. After the
immigration judge (“IJ”) denied those applications,
Niz-Chavez appealed the IJ’s decision to the Board of
Immigration Appeals (“BIA”) and asked the BIA to
remand the case to the IJ to consider Niz- Chavez’s
application for cancellation of removal in light of the
Supreme Court’s decision in Pereira v. Sessions, 138
S. Ct. 2105 (2018). The BIA denied Niz-Chavez’s
motion to remand and affirmed the IJ’s determination
that Niz-Chavez was not entitled to withholding of
removal or relief under the Convention Against
Torture. Niz-Chavez then appealed.
For the reasons stated below, we deny Niz-Chavez’s
petition for review of each of the challenged BIA
decisions.
I. BACKGROUND
A.

Factual Background

Niz-Chavez was born in Tajumulco, San Marcos,
Guatemala in 1990. Prior to his arrival in the United
States, he lived in Tajumulco with his family. He is
the sixth of eight children in his family. Niz-Chavez
and his family lived together on land that they owned
without issue until around 2002. Around that time, a
land dispute arose between Niz-Chavez’s family and
villagers from Ixchiguan, a neighboring village.
Niz-Chavez testified that Ixchiguan villagers
murdered his brother-in-law during this dispute. Two
years later, the dispute escalated again when fifty
armed Ixchiguan villagers arrived at the land and
took possession of the land by threatening NizChavez’s family, advising them that “if they found a
member of [his] family [on the land], they were going

3a
to kill him or her.” (September 13, 2017 Hearing
Transcript, A.R. 197.) His family has not returned to
the disputed land, and his parents now live on a piece
of land about an hour from the land that the Ixchiguan
villagers forcibly took. Some of Niz-Chavez’s siblings
also remain in Guatemala. Niz-Chavez testified that
his family still receives threats from the Ixchiguan
villagers, but he is not aware of any further acts of
violence attempted or carried out against his family.
Niz-Chavez left Guatemala and arrived in the
United States in 2005. After residing in Harrison,
Virginia, for two years, Niz-Chavez moved to Detroit,
Michigan, in 2007, where he has lived ever since. He
is now the father of three children, who are United
States citizens. Regarding a potential return to
Guatemala, Niz-Chavez testified that he was
concerned that the Ixchiguan villagers would learn of
his return and, believing that he was in the country to
reclaim the stolen land, kidnap or kill him. He also
expressed concern that the village of Tajumulco would
force him to fight in a land war against the Ixchiguan
villagers.
B.

Procedural Background

On March 26, 2013, Niz-Chavez was served with a
notice to appear before an IJ in Detroit at a date and
time to be determined later. On May 29, 2013, he
received a notice of hearing in removal proceedings,
which stated that the hearing in his case was
scheduled on June 25, 2013, at the immigration court
in Detroit. Niz-Chavez appeared at the hearing,
conceded removability, and stated his intent to seek
both withholding of removal and protection under the
Convention Against Torture. Eventually, a hearing on

4a
the merits of his case was held before an IJ on
September 13, 2017, with an oral decision issued by
the IJ on November 8, 2017.
The IJ denied Niz-Chavez’s application for
withholding of removal and his application for relief
under the Convention Against Torture. The IJ
granted Niz-Chavez thirty days to voluntarily depart
the country and advised him of his right to appeal to
the BIA. The IJ found that Niz-Chavez failed to
establish that he was subject to past persecution or
that he could not avoid future persecution in
Guatemala by relocating within the country, findings
which are fatal to a claim for withholding of removal.
The IJ also found that Niz-Chavez had not established
that government officials in Guatemala acquiesce to
any sort of torture, as is required for a claim under the
Convention Against Torture.
Niz-Chavez timely appealed to the BIA, challenging
the IJ’s conclusions on both issues. He also filed a
motion to remand to the IJ for consideration of NizChavez’s application for cancellation of removal in
light of the Supreme Court’s decision in Pereira v.
Sessions, 138 S. Ct. 2105, which interpreted the
statutory requirements governing eligibility for
cancellation of removal. Niz-Chavez argued that
under the Pereira decision, he was now eligible for
cancellation of removal under 8 U.S.C. § 1229b(b),
whereas he was not eligible under the BIA’s
interpretation of that statute at the time of his
proceedings before the IJ. The BIA affirmed the IJ’s
decision and denied the motion to remand, finding
that Niz-Chavez was not eligible for cancellation of
removal under the Pereira decision.

5a
Niz-Chavez filed a timely petition with this court.
II. ANALYSIS
A.

Standard of Review

“Where . . . the BIA reviewed the IJ’s decision de
novo and issued its own separate opinion, we review
the BIA’s decision as the final agency determination.”
Morgan v. Keisler, 507 F.3d 1053, 1057 (6th Cir. 2007)
(internal citation omitted). “To the extent the BIA
adopted the [IJ’s] reasoning, however, this Court also
reviews the [IJ’s] decision.” Khalili v. Holder, 557 F.3d
429, 435 (6th Cir. 2009) (internal citation omitted).
The IJ and the BIA’s factual findings are reviewed
under the substantial-evidence standard, meaning
that the court will not reverse such findings simply
because it would have decided them differently. Id.
(internal citation omitted). Rather, “[t]hese findings
are conclusive unless any reasonable adjudicator
would be compelled to conclude to the contrary.” Id.
(quoting Gishta v. Gonzales, 404 F.3d 972, 978 (6th
Cir. 2005)). Purely legal questions are reviewed de
novo. Sansusi v. Gonzales, 474 F.3d 341, 345 (6th Cir.
2007) (internal citation omitted).
B.

Withholding of Removal

The Immigration and Nationality Act provides that
“the Attorney General may not remove an alien to a
country if the Attorney General decides that the
alien’s life or freedom would be threatened in that
country because of the alien’s race, religion,
nationality, membership in a particular social group,
or political opinion.” 8 U.S.C. § 1231(b)(3)(A). To be
eligible for withholding of removal under this
provision, an applicant must demonstrate “a clear

6a
probability that he will be subject to persecution if
forced to return to the country of removal.” UmanaRamos v. Holder, 724 F.3d 667, 674 (6th Cir. 2013)
(internal citation and quotation omitted). To
demonstrate persecution, an individual must show
“more than a few isolated incidents of verbal
harassment or intimidation, unaccompanied by any
physical punishment, infliction of harm, or significant
deprivation of liberty.” Singh v. Ashcroft, 398 F.3d
396, 401 (6th Cir. 2005) (quoting Mikhailevitch v. INS,
146 F.3d 384, 390 (6th Cir. 1998)).
In determining whether an applicant will be subject
to persecution upon returning to the country of
removal, we have held that “[a]pplicants who
establish that they have suffered past persecution are
presumed to have a well-founded fear of future
persecution,” although the government can rebut this
presumption by demonstrating that conditions in the
country have fundamentally changed from the time
the persecution occurred such that the applicant no
longer has a well-founded fear of future persecution.
Id. (internal citation omitted). Additionally, the
ability to safely relocate within the country of removal
to avoid future persecution typically means that the
applicant is not entitled to relief. INS v. Orlando
Ventura, 537 U.S. 12, 18 (2002). Indeed, we have held
that a finding that an applicant can avoid persecution
by relocating within the country of removal is a
sufficient basis to deny an application for withholding
of removal. See Cruz- Samayoa v. Holder, 607 F.3d
1145, 1154-55 (6th Cir. 2010).
Here, the BIA found that Niz-Chavez had not
established a presumption of future persecution
because he had failed to show that he had been

7a
subjected to persecution when he was previously in
Guatemala and that, to the extent there is a risk of
future persecution, Niz-Chavez can avoid that risk by
relocating within Guatemala. Specifically, the BIA
agreed with the IJ that Niz-Chavez had not been
persecuted in the past because he had never been
subjected to physical harm in Guatemala and could
not demonstrate more than isolated instances of
verbal harassment. The BIA also agreed with the IJ
that Niz-Chavez could relocate within Guatemala to
avoid any potential future persecution, pointing to the
fact that the basis for Niz-Chavez’s claim of
persecution was a land dispute occurring on a specific
piece of land and that his family members in
Guatemala relocated within the country more than a
decade ago and have not experienced further issues
related to the land dispute. These findings are
dispositive
to
Niz-Chavez’s
application
for
withholding of removal.
In challenging the findings, Niz-Chavez urges the
court to consider the cumulative effect of the harms
against his family perpetrated by the Ixchiguan
villagers. He asserts that the murder of his brotherin-law, combined with the threats that his family
received and the ultimate ceding of their land to the
invading villagers is enough to establish that NizChavez experienced persecution in the past. He cites
our holding in Gilaj v. Gonzales, which requires the
BIA to consider the aggregate abuses suffered by the
individual in question in determining whether
persecution has occurred. 408 F.3d 275, 287 (6th Cir.
2005). Regarding his ability to relocate, Niz-Chavez
asserts that the BIA should have considered ongoing
civil strife across Guatemala in making the

8a
determination as to whether Niz-Chavez had the
ability to relocate to a different part of the country.
Per Niz-Chavez, evidence of general lawlessness
resulting from a lack of government control and poor
judicial infrastructure compels the conclusion that he
cannot safely relocate within Guatemala.
When it comes to both the issue of persecution
suffered by Niz-Chavez and his ability to relocate
within Guatemala, this court’s role is not to issue a
decision based on how it would independently assess
the evidence. Rather, under substantial-evidence
review, the court will only reverse the BIA’s
determination if “any reasonable adjudicator would be
compelled to conclude to the contrary.” Kahili, 557
F.3d at 435 (internal citation and quotation omitted).
Thus, our review is only to determine whether any
reasonable adjudicator could reach the same
conclusion on the merits of Niz-Chavez’s claims as the
BIA. Here, the BIA’s conclusion survives this
deferential review.
On this record, a reasonable adjudicator could reach
the same conclusion as the BIA regarding both the
question of whether Niz-Chavez suffered past
persecution and whether he was able to relocate
within Guatemala. The record does not reflect that
Niz-Chavez was ever personally harmed, or that any
of his family members who live in Guatemala have
been harmed as a result of the land dispute since
2004. From this, the BIA could reasonably conclude
that Niz- Chavez did not suffer abuses amounting to
persecution when he previously lived in Guatemala
and would not likely be subject to persecution were he
forced to return. Moreover, the BIA could reasonably
conclude that Niz-Chavez had the ability to safely

9a
relocate within Guatemala to avoid any potential
persecution because his parents and siblings had been
able to do so.
Accordingly, we deny Niz-Chavez’s petition for
review of the BIA’s denial of his application for
withholding of removal.
C.

Convention Against Torture

Under this court’s precedent, an applicant who
seeks relief under the Convention Against Torture
must show that it is “more likely than not that he
would be tortured if removed to the proposed country
of removal.” Zhao v. Holder, 569 F.3d 238, 241 (6th
Cir. 2009); see also 8 C.F.R. § 1208.16(c). Torture
“must entail the intentional infliction of severe mental
or physical pain upon an individual by or at the
instigation of or with the consent or acquiescence of a
public official or other person acting in an official
capacity.” Alhaj v. Holder, 576 F.3d 533, 539 (6th Cir.
2009) (internal citation and quotation omitted).
Acquiescence by a public official occurs when the
public official has “awareness of such activity and
thereafter breach[es] his or her legal responsibility to
intervene to prevent such activity.” 8 C.F.R. §
1208.18(a)(7). “Willful blindness” is also considered to
be acquiescence. See Amir v. Gonzales, 467 F.3d 921,
927 (6th Cir. 2006) (internal citation omitted). Finally,
this court has also held that the Convention Against
Torture “does not afford protection to torturous acts
inflicted by wholly private actors.” Zaldana Menijar v.
Lynch, 812 F.3d 491, 501 (6th Cir. 2015) (internal
citation omitted).
Here, the BIA found that it was not more likely than
not that Niz-Chavez would be tortured with official

10a
acquiescence were he to return to Guatemala. The
BIA found that even if the land feud violence were to
occur and be considered severe enough to constitute
torture, Niz-Chavez failed to show that it would occur
with government acquiescence.
Niz-Chavez contends that the Guatemalan
government’s inability to adequately address land
feud violence is the equivalent of acquiescence. He
states that the fact that the Ixchiguan villagers were
able to kill his brother-in-law and drive his family
from their land without consequences shows that the
Guatemalan government has breached its legal
responsibility to prevent this sort of behavior.
This court requires more to show government
acquiescence. Specifically, we have held that without
testimony that establishes that government actors
participated in, consented to, or willfully ignored the
violence, the record does not compel a conclusion that
the government acquiesced to torture. Id. at 502.
Here, no testimony establishes that the government
was willfully ignoring the land feud violence that
occurs in Guatemala. As the government notes, record
evidence demonstrates that the occurrence of land
feud violence is actually decreasing in Guatemala,
and there is no testimony that the government has
ignored the problem. Moreover, as discussed above,
the record also does not compel the conclusion that
Niz-Chavez would be subjected to violence at all, let
alone violence amounting to torture that occurs with
government acquiescence.
Thus, a reasonable adjudicator would not be
compelled to conclude that it is more likely than not
that Niz-Chavez would be subjected to torture upon

11a
his return to Guatemala. As such, we deny NizChavez’s petition for review of the BIA’s denial of
relief under the Convention Against Torture.
D. Motion to Remand
Niz-Chavez also appeals the denial of his motion to
remand to the IJ for consideration of an application
for cancellation of removal following the Supreme
Court’s decision in Pereira. Niz-Chavez sought
remand to apply for cancellation of removal under 8
U.S.C. § 1229b(b)(1), which gives the Attorney
General discretion to cancel removal of a person who
is subject to deportation when the person applies for
cancellation and meets certain qualifications. See 8
U.S.C. § 1229b(b)(1).
Under 8 U.S.C. § 1229a(c)(7)(A), a person is entitled
to file one motion to reopen immigration proceedings.
The motion must “state the new facts that will be
proven at a hearing to be held if the motion is granted”
and “be supported by affidavits or other evidentiary
material.” 8 U.S.C. § 1229a(c)(7)(B). The Supreme
Court has held that there are “at least three
independent grounds on which the BIA may deny a
motion to reopen.” INS v. Abudu, 485 U.S. 94, 104
(1988). The BIA may deny such a motion when (1) the
movant has not established a prima facie case for the
underlying substantive relief sought; (2) when the
movant has not introduced new or previously
unavailable evidence; or (3) the relief sought is
discretionary and the movant is not entitled to a
discretionary grant of relief. Id. at 104-05. The denial
of a motion to reopen is reviewed for abuse of
discretion. Pilica v. Ashcroft, 388 F.3d 941, 948 (6th
Cir. 2004). We note that the fact that Niz-Chavez filed

12a
his pleading as a “motion to remand” and not a
“motion to reopen” does not change our analysis. This
court typically treats motions to remand and motions
to reopen “in a similar fashion,” finding that “[t]he
difference in title is not significant[.]” See Fieran v.
INS, 268 F.3d 340, 344 n.2 (6th Cir. 2001).
For Niz-Chavez to be eligible for cancellation of
removal under 8 U.S.C. § 1229b(b)(1), he must have
been “physically present in the United States for a
continuous period of not less than 10 years
immediately preceding the date of such application[.]”
8 U.S.C. § 1229b(b)(1)(A). Any period of continuous
presence, however, is deemed to end when the person
is “served a notice to appear under section 1229(a) of
this title[.]” Id. § 1229b(d)(1). This is referred to as the
“stop-time rule.” See Pereira, 138 S. Ct. at 2109.
8 U.S.C. § 1229(a)(1) sets forth the requirements for
what information must be included in a notice to
appear. It states that, among other requirements, a
notice to appear must include the time and place at
which the proceedings concerning the recipient of the
notice will be held. 8 U.S.C. § 1229(a)(1)(G)(i). For
many years, it was common practice for the
Department of Homeland Security to send notices to
appear that did not contain information specifying the
time and place at which proceedings against the
recipient would be held. Pereira, 138 S. Ct. at 2111. In
Pereira, the Supreme Court held that a document that
does not specify the time and place of proceedings does
not trigger the stop-time rule because it is not a notice
to appear under 8 U.S.C. § 1229(a)(1). Id. at 2110.
Neither party contends that the notice to appear
that Niz-Chavez received on March 26, 2013, which

13a
did not contain the requisite time and place
information, triggered the stop-time rule. Niz-Chavez
did, however, later receive information concerning the
time and place of his hearing through a subsequent
notice of hearing. The parties dispute whether this
subsequent notice of hearing can cure the defective
notice to appear and, by extension, whether the two
documents collectively triggered the stop-time rule.
Niz-Chavez contends that they do not because he
never received a singular document that would
qualify as a notice to appear under 8 U.S.C. §
1229(a)(1). He argues that the Pereira decision
constitutes previously unavailable evidence because,
under his interpretation of Pereira and the operating
statute, he has now accrued more than ten years of
continuous presence in the United States, which
would not have been the case under the BIA’s
precedent at the time of his proceedings before the IJ.
Thus, he contends that the BIA erred in not
remanding his case to the IJ so that he could pursue
an application for cancellation of removal.
The government asserts that by providing NizChavez all of the required information for a notice to
appear under the statute across the two documents, it
successfully triggered the stop-time rule. As a result,
the government advances, Niz-Chavez is not eligible
for cancellation of removal and the BIA did not err in
denying him what would be a fruitless attempt to seek
such relief.
At the time that the parties filed their briefs, this
question was unresolved by this circuit and was in
dispute around the country. The Ninth Circuit, for
example, had adopted the approach that Niz-Chavez
advances here, holding that the law does not permit

14a
multiple documents to collectively satisfy the
requirements of a notice to appear. See Lopez v. Barr,
925 F.3d 396, 405 (9th Cir. 2019). Meanwhile, the
Fifth Circuit reached the opposite conclusion, finding
that a notice of hearing with time and place
information can cure a defective notice to appear for
purposes of triggering the stop-time rule. See PierrePaul v. Barr, 930 F.3d 684, 690 (5th Cir. 2019).
This court, however, has now resolved the dispute.
See Garcia-Romo v. Barr, ___ F.3d _____, 2019 WL
4894346 (6th Cir. 2019 Oct. 4, 2019). In Garcia-Romo,
this court was presented with this exact question of
statutory interpretation: whether the government can
trigger the stop-time rule by satisfying the
requirements of a notice to appear through multiple
documents. Id. at *4. The court answered that
question in the affirmative, finding that the stop-time
rule is triggered when the government provides a
person with all the information required under 8
U.S.C. 1229(a)(1) through more than one document.
Id. at *6.
Under Garcia-Romo, the stop-time rule was
triggered for Niz-Chavez on May 29, 2013, when he
received information concerning the time and place of
the immigration proceedings against him, which
occurred prior to him accruing ten years of continuous
physical presence in the United States. Without ten
years of continuous physical presence in the United
States, Niz-Chavez is not eligible for cancellation of
removal under the governing statute. See 8 U.S.C. §
1229b(b)(1). He cannot, therefore, establish a prima
facie case for the relief that he would seek on remand
to the IJ. Accordingly, the BIA was justified in
denying the motion to remand. See Abudu, 485 U.S.

15a
at 104. As the BIA had a valid basis to deny the motion
to remand, it did not abuse its discretion in doing so.
We, in turn, deny Niz-Chavez’s petition for review of
that decision.
III.

CONCLUSION

For the foregoing reasons, we DENY Niz-Chavez’s
petition for review and AFFIRM the decision of the
BIA.

16a
APPENDIX B
U.S. Department of Justice Decision of the Board
of Immigration Appeals
Executive Office for Immigration Review
Falls Church, Virginia 22041
File: A205-000-967 — Detroit, MI
Date: Nov. 29, 2018
In re: Agusto NIZ-CHAVEZ a.k.a. Dionis Felix Ti
Suarez-Pagan
IN REMOVAL PROCEEDINGS
APPEAL
ON BEHALF OF RESPONDENT: Sufen Hilf,
Esquire
ON BEHALF OF DHS:

Michael El-Zein
Assistant Chief Counsel

APPLICATION: Withholding of removal; Convention
Against Torture
The respondent, a native and citizen of Guatemala,
appeals from the Immigration Judge’s November 8,
2017, decision denying his application for withholding
of removal and protection under the Convention
Against Torture.1 Section 241 (b)(3)(A) of the
Since the respondent does not meaningfully challenge the
denial of his asylum application based on the Immigration
Judge’s determination that the application is statutorily time1

17a
Immigration and Nationality Act, 8 U.S.C. §
1231(b)(3)(A); 8 C.F.R. §§ 1208.16(c) and 1208.18. The
respondent has also submitted a motion to remand.
The Department of Homeland Security (DHS) has
filed a brief opposing the respondent’s appeal and
motion. The appeal will be dismissed.
We review for clear error the findings of fact,
including the determination of credibility, made by
the Immigration Judge. 8 C.F.R. § 1003.1(d)(3)(i). We
review de novo all other issues, including issues of
law, judgment, or discretion. 8 C.F.R. §
1003.1(d)(3)(ii).
On appeal, the respondent argues, inter alia, that
the Immigration Judge erred in finding that that it
was not more likely than not that he would be
subjected to future persecution in Guatemala based
on his membership in a particular social group, which
was identified as a family member who has suffered
the consequences of Guatemala land use disputes
(Respondent’s Br. at 3-17). We disagree.
We affirm the Immigration Judge’s determination
that the respondent has not established past
persecution or a clear probability of future persecution
on account of a statutorily protected ground (IJ at 710). See section 241(b)(3)(A) of the Act (stating that an
alien seeking withholding of removal under the Act
must show that his life or freedom would be
threatened on account of race, religion, nationality,
membership in a particular social group, or political
barred, we deem this issue waived on appeal. See Matter of R-AM-, 25 I&N Dec. 657,658 n.2 (BIA 2012) (stating that when a
respondent fails to appeal an issue addressed in an Immigration
Judge’s decision, that issue is waived before the Board).

18a
opinion); 8 C.F.R. §§ 1208.16(a), (b); see also section
101(a)(42) of the Act, 8 U.S.C. § 1101 (a)(42). At the
hearing below, the respondent testified that he fears
harm in Guatemala because in 2005, his family was
threatened and their land was taken by the
neighboring village of Ixchiguan (IJ at 2-3; Tr. at 3334). The respondent further testified that his brotherin-law was killed by people from Ixchiguan in 2004 (IJ
at 3; Tr. at 36-37, 43).
Upon our de novo review, we affirm the Immigration
Judge’s ruling that the respondent did not meet his
burden of establishing his eligibility for withholding
of removal (IJ at 7-10). See section 241(b)(3)(A) of the
Act; see Khalili v. Holder, 557 F.3d 429, 435-36 (6th
Cir. 2009) (stating that to qualify for withholding of
removal, an alien must demonstrate “that there is a
clear probability that he will be subject to persecution
if forced to return to the country of removal”) (internal
citation and quotation omitted); see also Litt v.
Gonzales, 411 F.3d 631, 640 (6th Cir. 2005) (holding
that an applicant seeking withholding of removal
faces “a more stringent burden than what is required
on a claim for asylum”). Specifically, we agree with the
Immigration Judge’s ruling that the respondent has
not established that he experienced harm rising to the
level of persecution in Guatemala on account of a
protected ground under the Act (U at 7-9). 8 C.F.R. §
1208.16(b)(1). As noted by the Immigration Judge, the
respondent has never been physically harmed in
Guatemala and his family members have not been
harmed or threatened by anyone since 2004 (U at 7-8;

19a
Tr. at 45-46, 53).2 See Mikhailevitch v. INS, 146 F.3d
384, 390 (6th Cir. 1998) (holding that, to establish
past persecution, an applicant must show that she has
been subjected to “more than a few isolated incidents
of verbal harassment or intimidation, unaccompanied
by any physical punishment, infliction of harm, or
significant deprivation of liberty”) (citation omitted).
Likewise, for the reasons discussed by the
Immigration Judge, we discern no clear error in the
Immigration Judge’s finding that the respondent did
not establish that he is unable to internally relocate
safely within Guatemala (IJ at 9-10). 8 C.F.R. §
1208.16(b)(2), (3)(i) (explaining that where an
applicant has not established cognizable past
persecution, he bears the burden of establishing by a
preponderance of the evidence that it would not be
reasonable for him to internally relocate); see Matter
of Z-Z-O-, 26 I&N Dec. 586, 591-92 (BIA 2015); Matter
of D-1-M-, 24 I&N Dec. 448,450 (BIA 2008).
Specifically, as noted by the Immigration Judge, the
respondent testified that he fears harm as a result of
a land dispute between his municipality, Tajumulco,
and the neighboring municipality of Ixchiguan; thus,
the prospective harm he fears is not countrywide (U
at 9-10; Tr. at 33-34). Notably, while the respondent
claims that he would be unable to relocate within
We are not persuaded by the respondent’s appellate
arguments that, inter alia, his “family in Guatemala continues to
receive threats” and that “the villagers of Ixchiguan have
repeatedly made death threats against” him (Respondent’s Br. at
4-6), to the extent that he does not cite to any record evidence to
support his arguments. We note that unsupported statements by
counsel are not evidence and thus are not entitled to any
evidentiary weight. See Matter of Ramirez-Sanchez, 17 I&N Dec.
503,506 (BIA 1980).
2

20a
Guatemala because he would have “no job, no home,
no support system” (Respondent’s Br. at 14), he has
not provided any reasonable explanation as to how the
people of Ixchiguan would find him if he were to
relocate to another part of Guatemala nor has he
pointed to any evidence to demonstrate that his
internal relocation within the country would not be
reasonable (U at 9-10). See 8 C.F.R. § 1208.16(b)(3)(i).
Moreover, as noted by the Immigration Judge, the
respondent’s family members, including his parents
and siblings, have remained unharmed in Guatemala
(IJ at 4-5; Tr. at 44, 46, 54). See Almuhtaseb v.
Gonzales, 453 F.3d 743 (6th Cir. 2006); see also Mullai
v. Ashcroft, 385 F.3d 635, 638 (6th Cir. 2004).
Thus, contrary to the respondent’s appellate
arguments, the Immigration Judge’s conclusion that
the respondent has not established that he would be
unable to internally relocate safely within Guatemala
is not clearly erroneous (U at 9-10). See 8 C.F.R. §
1208.16(b)(3)(i). Consequently, we affirm the
Immigration Judge’s determination that the
respondent is not eligible for withholding of removal
because he has not established that it is more likely
than not that he would be subject to persecution on
account of a protected ground if he returns to
Guatemala (U at 7-10). See section 241(b)(3)(A) of the
Act.
The record also supports the Immigration Judge’s
finding that the respondent has not met his burden of
establishing eligibility for protection under the
Convention Against Torture by demonstrating that it
is more likely than not that he will be tortured “by or
at the instigation of or with the consent or
acquiescence [to include willful blindness] of a public

21a
official or other person acting in an official capacity”
in Guatemala (IJ at 10). 8 C.F.R. §§ 1208.16(c)(2),
1208.18(a)(1); see Matter of Z-Z-O-, 26 I&N Dec. at 586
(explaining that an Immigration Judge’s predictive
findings of what may or may not occur in the future
are findings of fact, which are reviewed under the
“clear error” standard). As noted by the Immigration
Judge, although reports on country conditions in
Guatemala confirm the occurrence of land disputes,
the evidence does not establish that Guatemalan
government officials acquiesce to land feud violence
(U at 10). Thus, we discern no clear error in the
Immigration Judge’s determination that the
respondent has not proven that it is more likely than
not that he will be tortured with the requisite official
acquiescence if he returns to Guatemala (U at 10). See
8 C.F.R. §§ 1208.16(c)(2), 1208.18(a)(1); Amir v.
Gonzales, 467 F.3d 921,926-27 (6th Cir. 2006)
(discussing Convention Against Torture standards).
We turn next to the respondent’s motion to remand.
A motion to remand must generally state new facts to
be considered at a subsequent hearing and must be
supported by affidavits or other evidentiary materials
demonstrating the respondent’s prima facie eligibility
for the relief sought. See 8 C.F.R. § 1003.2(c)(1); see
also INS v. Abudu, 485 U.S. 94 (1988); Matter of
Singh, 24 I&N Dec. 331,334 (BIA 2007); Matter of
Coelho, 20 I&N Dec. 464,471 (BIA 1992). Such a
motion will not be granted unless the evidence offered
is material, was not available, and could not have
been discovered or presented at the former hearing.
See 8 C.F.R. § 1003.2(c)(1). An alien must make a
prima facie showing both that he is statutorily eligible
for the relief sought and that he warrants relief in the

22a
exercise of discretion. See, e.g., INS v. Doherty, 502
U.S. 314 (1992); INS v. Abudu, 485 U.S. 94 (1988);
Matter of Coelho, 20 I&N Dec. at 472.
In his motion, the respondent argues that he is
eligible for cancellation of removal and further argues
that the notice to appear, dated March 26, 2013, is
invalid (see Respondent’s “Motion to Remand for
Consideration of Relief Under INA § 240A(b) in Light
of Pereira v. Sessions”). We find the respondent’s
reliance on Pereira v. Sessions, 138 S. Ct. 2105, 2108
(2018), to be misplaced. In Pereira, the United States
Supreme Court held that a putative notice to appear
that fails to designate the specific time or place of an
alien’s removal proceedings is not a notice to appear
under section 239(a) of the Act, 8 U.S.C. § 1229(a), and
thus, it does not trigger the stop-time rule for
cancellation of removal purposes. Pereira v. Sessions,
138 S. Ct. at 2108. Moreover, this Board has recently
held that a notice to appear that does not specify the
time and place of an alien’s initial removal hearing
vests an Immigration Judge with jurisdiction over the
removal proceedings and meets the requirements of
section 239(a) of the Act, so long as a notice of hearing
specifying this information is later sent to the alien,
which was the case here. Matter of Bermudez-Cota, 27
I&N Dec. 441 (BIA 2018).
Here, unlike in Pereira, the respondent did not seek
cancellation of removal before the Immigration Judge.
Significantly, although the respondent claims that he
is now eligible for cancellation of removal, he has not
proffered any material evidence that was previously
unavailable at his prior hearing or evidence which
establishes his prima facie eligibility for the relief

23a
requested.3 See 8 C.F.R. § 1003.2(c)(1). Consequently,
we conclude that remand is unwarranted.
The record reflects that the respondent has
submitted timely proof of having paid the required
bond in accordance with the Immigration Judge’s
grant of voluntary departure (IJ at 11-12). See 8
C.F.R. § 1240.26(c)(3); see also Matter of Gamero, 25
I&N Dec. 164 (BIA 2010). Therefore, the voluntary
departure period will be reinstated.
Accordingly, the following orders will be entered.
ORDER: The respondent’s appeal is dismissed.
FURTHER ORDER: Pursuant to the Immigration
Judge’s order and conditioned upon compliance with
conditions set forth by the Immigration Judge and the
statute, the respondent is permitted to voluntarily
depart the United States, without expense to the
Government, within 60 days from the date of this
order or any extension beyond that time as may be
granted by the DHS. See section 240B(b) of the Act, 8
U.S.C. § 1229c(b); see also 8 C.F.R. §§ 1240.26(c), (f).
In the event the respondent fails to voluntarily depart
the United States, the respondent shall be removed as
provided in the Immigration Judge’s order.
NOTICE: If the respondent fails to voluntarily
depart the United States within the time period
We further note that the respondent first entered the United
States in February of 2005, he was placed in removal proceedings
on or about March 26,2013, and received the notice of hearing for
his June 25, 2013, hearing (see Exh. 2; Tr. at 1-4). Thus, contrary
to his claims, the respondent has not established that he has
been physically present in the United States for a continuous
period of 10 years as required under section 240A(b)(l) of the Act,
8 U.S.C. § 1229b(b).
3

24a
specified, or any extensions granted by the DHS, the
respondent shall be subject to a civil penalty as
provided by the regulations and the statute and shall
be ineligible for a period of 10 years for any further
relief under section 240B and sections 240A, 245,248,
and 249 of the Act. See section 240B(d) of the Act.
WARNING: If the respondent files a motion to
reopen or reconsider prior to the expiration of the
voluntary departure period set forth above, the grant
of voluntary departure is automatically terminated;
the period allowed for voluntary departure is not
stayed, tolled, or extended. If the grant of voluntary
departure is automatically terminated upon the filing
of a motion, the penalties for failure to depart under
section 240B(d)of the Act shall not apply. See 8 C.F.R.
§ 1240.26(e)(1).
WARNING: If, prior to departing the United States,
the respondent files any judicial challenge to this
administratively final order, such as a petition for
review pursuant to section 242 of the Act, 8 U.S.C. §
1252, the grant of voluntary departure is
automatically terminated, and the alternate order of
removal shall immediately take effect. However, if the
respondent files a petition for review and then departs
the United States within 30 days of such filing, the
respondent will not be deemed to have departed under
an order of removal if the alien provides to the DHS
such evidence of his or her departure that the
Immigration and Customs Enforcement Field Office
Director of the DHS may require and provides
evidence DHS deems sufficient that he or she has
remained outside of the United States. The penalties
for failure to depart under section 240B(d) of the Act
shall not apply to an alien who files a petition for

25a
review, notwithstanding any period of time that he or
she remains in the United States while the petition
for review is pending. See 8 C.F.R. § 1240.26(i).
Patricia A. Cole
FOR THE BOARD

26a
APPENDIX C
UNITED STATES DEPARTMENT OF JUSTICE
EXECUTIVE OFFICE FOR IMMIGRATION
REVIEW
UNITED STATES IMMIGRATION COURT
DETROIT, MICHIGAN
File: A205-000-967

November 8, 2017

In the Matter of
AGUSTO NIZCHAVEZ
RESPONDENT

)
)
)
)

IN REMOVAL
PROCEEDINGS

CHARGES:
APPLICATIONS:
ON BEHALF OF RESPONDENT: JEFFREY
MCCARROLL
ON BEHALF OF DHS: MICHAEL EL-ZEIN
ORAL DECISION OF THE IMMIGRATION JUDGE
The respondent is a native and citizen of Guatemala
who was issued a Notice to Appear by the Department
of Homeland Security on March 26, 2013, charging
him with inadmissibility pursuant to Section
212(a)(6)(A)(i) of the Immigration and Nationality Act
as an alien present in the United States without being
admitted or paroled.

27a
On May 24, 2013, the Notice to Appear was filed
with the Court commencing removal proceedings and
vesting jurisdiction with this Court.
At a master calendar, respondent admitted all the
factual allegations in the Notice to Appear, and
conceded inadmissibility as charged. He declined to
designate a country of removal. The Court directed
Guatemala as the country of removal, if necessary.
On June 14, 2017, the respondent submitted an
application for withholding of removal and relief
under the Convention Against Torture, form I-589.
The respondent filed, with the Court, documents in
support of his claim. They go from Exhibit 2 to Exhibit
4. The Court also considered the testimony of the
respondent. The totality of the evidence presented has
been considered by the Court regardless of whether
specifically mentioned in this decision.
SUMMARY OF THE RESPONDENT’S
TESTIMONY
The respondent testified that he was born in
Tajumulco, San Marcos, Guatemala, on August 31,
1990. He entered the United States on or about
February 2005, without inspection. Respondent
claims he has three children. The oldest daughter was
born in August 2005 in Guatemala. The two younger
children are U.S. citizens. Respondent claimed he
lived in Tajumulco before coming to the United States.
Respondent stated he has four siblings in the United
States, and three siblings and his parents in
Tajumulco, Guatemala. Respondent claims he left
Guatemala
because
problems
between
two
municipalities; Tajumulco, which is his municipality,

28a
and Ixchiguan, that started a long time ago, sometime
in 2004. Respondent claims that in 2005, the village
of Ixchiguan took all the land and threatened
respondent’s family and neighbors, so they had to
leave the land. Ixchiguan claimed that the land
belonged to them. They said that they had proof, but
there was no law. Respondent claims the land
belonged to his parents since they were young and
respondent was born in that land. Respondent claims
his father told him he purchased the land and that he
has the evidence. Respondent believes his father has
evidence of ownership; however, respondent did not
ask his father for the evidence of ownership, because
it did not occur to the respondent to ask his father for
that evidence of corroboration. At least, that was the
testimony of the respondent in court when he was
asked regarding evidence that he claims his father
has that the land that they had to abandon belongedto his father.
Respondent claims he fears harm or mistreatment
by the people of Ixchiguan. Respondent claims that
many years ago respondent’s brother-in-law, Roberto
Chavez, was killed. He was married to Natalia,
respondent’s sister. Roberto Chavez was working in
the fields when people from Ixchiguan arrived and
sequestered him and asked him why he had not left
the land. So he was kidnapped and killed. According
to the respondent, nothing happened to his sister,
Natalia. According to the I-589, Natalia was with Mr.
Chavez working the land. In the I-589, page 5, part B,
question 1A, the respondent indicates that in the year
2004, while his sister and brother-in-law were
working, cultivating their land, the citizens of

29a
Ixchiguan took them by surprise and kidnapped the
brother-in-law.
In court, respondent described the incident by
saying that many years ago respondent’s brother-inlaw, Roberto Chavez, was killed. He was married to
Natalia. Roberto Chavez was working in the fields
when people from Ixchiguan arrived and sequestered
him and asked him why he had not left the land. So
he was kidnapped and he was killed. According to the
respondent, nothing happened to his sister, Natalia,
even though she was with him in the field.
Respondent claimed that when this happened, he was
in school, and he was about 8 years old. Respondent is
now 27 years old. The incident respondent described
occurred almost 20 years ago. Respondent claims he
left school and went into hiding, because the war had
started. According to the respondent, the kidnappers
left a letter that the family had to leave, because what
happened to Roberto Chavez would happen to
respondent’s family. Respondent has not provided
corroboration of this event, because it did not occur to
respondent, according to his answers to why he has
not provided corroboration from his sister, his father,
or anyone in his family, respondent indicated that it
did not occur to him to ask his sister or his parents for
a letter or corroboration. Respondent claims that
documents to corroborate do not exist in Guatemala
or the documents were stolen. Respondent claims he
left everything in the house in 2004. Respondent also
claimed that in 2004, the government of Guatemala
kept no records of deaths or marriages. Things were
written in pencil. Respondent claims it was not
possible for him to obtain documents from San
Marcos. It would have taken a day, and his parents

30a
would have had to request them as they did with what
the respondent has provided to the Court and was
admitted as Exhibit 4, page 15.
So, even though the respondent did request some
documents from his parents, he failed to produce any
corroboration of the death of his brother-in-law,
Roberto Chavez according to the respondent, and
according to his testimony, that was killed by the
people of Ixchiguan.
According to the respondent’s testimony, since he
came to the United States, nothing has happened to
his family. The respondent, according to the I-589,
came to the United States on or about February 2005.
Respondent claims he is aware of the violence in the
area where he lived, because they want to take over
the land. Respondent claims that the people from
Ixchiguan have said that if they were to find a
member of respondent’s family in the land, they would
kill him or her. Respondent claims that since his
family left the land in 2004, nothing has happened to
them, but there is hatred. Respondent claims he has
no home to return to, because his parents only have a
small piece of land where they live. They now live in a
piece of land respondent’s grandmother gave them. It
is further from where they used to live. They sell
vegetables, and their neighbors lend them land to
raise corn without paying them. Respondent claims if
he were to return to Guatemala, he would have no
place to live, and the people from Ixchiguan would
know he arrived, and they would not be happy,
because they would think that he is there to try to
recover the land they used to have in 2004.
Respondent claims they may kidnap or kill him.

31a
During cross-examination, respondent testified that
when his brother-in-law was killed, the family
remained in their house, meaning respondent’s
family. Then, respondent testified that his brother-inlaw was killed in the year 2002. Respondent said he
was about 12 years old, where initially he had said he
was about 8 years old when it happened. Respondent
testified that his brother-in-law was the only member
of the family that had problems with the land in
Guatemala. Respondent testified that between 2002,
when his brother-in-law was killed, and 2004, nothing
happened to his family, but they continued to receive
threats. However, no one was actually harmed.
Between 2002 and 2004, no one in respondent’s family
worked the land. And, since 2004, they left the land,
and no one has returned to that land to work it from
respondent’s family. Respondent does not have the
intention to return to that land or to work it.
Respondent’s parents have a new home away from
that land, about an hour away. Since 2002,
respondent’s siblings have come to the United States
and returned to Guatemala without any problems.
Respondent indicated that Fernando, Natalia, and
Anastasia have not left Guatemala since 2002, and
nothing has happened to them.
Anastasia is married and has a husband and family
in Guatemala. Fernando and Natalia live with
respondent’s parents. No one has been to that land in
over one decade. No one has persecuted respondent’s
siblings in Guatemala. Respondent has no intention
to go back to that place. Respondent claims that in
Guatemala there is a lot of delinquency, and that is
the only thing preventing respondent from living

32a
anywhere else in Guatemala. Respondent fears
general delinquency in Guatemala.
Respondent was also qualified for voluntary
departure. He indicated he is willing and able to
depart when ordered, and he accepted the condition of
having to post a voluntary departure bond, minimum
$500, within five days of the Court’s order.
That is the summary of the respondent’s testimony
in court.
The Court finds respondent was generally credible.
There were some discrepancies as to when his
brother-in-law, Roberto Chavez, was killed, whether
the respondent was 8 years old, or whether he was 12
years old. So it is not clear when Roberto Chavez was
killed. But, according to the respondent, it was
sometime in, maybe, 2002. His application says 2004.
And the respondent’s testimony in court said that he
and his family left the land in the year 2004, and
nothing else has happened to any of his family since
then. Also, in court, the respondent had testified that
it was only his brother-in-law who worked the land in
Guatemala during that time that he described as
having the problem.
ASYLUM
As respondent has filed his application for asylum
more than one year after the date of his last arrival in
the United States, and he has not shown that any of
the exceptions to the one year bar apply he is
statutorily barred from asylum relief. INA Section
208(a)(2)(B).

33a
WITHHOLDING OF REMOVAL
The Court will analyze whether respondent has
established statutory eligibility for withholding of
removal under the INA and under the Convention
Against Torture.
For withholding, the applicant must demonstrate
that, if returned to his country, his life or freedom
would be threatened because of one of the protected
grounds. INA Section 241(b)(3). To make this
showing, the respondent must establish a clear
probability of persecution, meaning that it is more
likely than not that he will be subject to persecution
on account of a protected ground if returned to the
country from which he is seeking withholding of
removal; that being Guatemala. INS v. CardozaFonseca, 280 U.S. 421,423 (1997).
Furthermore, like an asylum applicant, a
withholding applicant must establish that race,
religion, nationality, membership in a particular
social group, or political opinion was or will be at least
one central reason for the persecution. Matter of C-TL-, 25 I&N Dec. 341,348 (BIA 2010). There is no
discretionary element for withholding of removal.
Therefore, if the applicant establishes eligibility for
withholding of removal, it must be granted. INS v.
Ventura, 537 U.S. 12, 13 (2002).
If an alien demonstrates past persecution in the
proposed country of removal, it is presumed that his
life or freedom will be threatened in the future on the
basis of his or her original claim. If the applicant fear
future threats to life or freedom is unrelated to the
past persecution. The applicant bears the burden of

34a
establishing that it is more likely than not that he
would suffer such harm.
PAST PERSECUTION
First, the respondent has failed to demonstrate that
he had been subject to past persecution based on the
respondent’s testimony and evidence in the Court.
The Court finds that what happened to the
respondent in Guatemala in 2004 does not rise to the
level of persecution. Persecution in an extreme
concept, and based on the testimony and the evidence
presented, the Court finds that the respondent has not
been subjected to persecution in Guatemala based on
any statutory ground. Even considering the
respondent’s claim that his brother-in-law was killed,
the respondent has failed to corroborate that he had a
brother-in-law by that name or that that person was
killed in Guatemala, or was related to the respondent
in any way.
As to whether respondent has established that it is
more likely than not that he will suffer future
persecution, the Court finds respondent has not met
his burden of establishing that any hypothetical
future harm he would suffer would be because of one
the five protected grounds. 8 C.F.R. 1208.16(b)(1 )(iii).
To show persecution because of membership in a
particular social group, an applicant must establish
that the group is composed of members who share a
common immutable characteristic, defined with
particularity, and socially distinct within the society
in question. Matter of M-E-V-G-, 26 I&N Dec. 227
(BIA 2013). Respondent claims to fear persecution on
account of his particular social group as a family

35a
member who has suffered the consequences of
Guatemala constant land use. That is the group that
respondent claims to belong to. The respondent claims
his father’s land was taken by the people of Ixchiguan,
Chuapequez, the Court finds respondent has not met
his burden of proof in establishing that his father
owned the land he claims was taken or that any such
action by the people of the neighboring municipality
where respondent resided in Guatemala raises to the
level of persecution. The incident respondent
described in his testimony where his brother-in-law
was killed because of the land feud is inconsistent
with some information provided in his I-589
application. Respondent testified that the incident
occurred. Initially, he said 1998, 1999. Then, he said
it was 2002. Whereas the I-589 state it happened in
2004. In addition, respondent has failed to corroborate
said incident. He has failed to provide corroboration
as to any family relationship to this individual that
was killed, or as to when, why, or how the death
happened other than respondent’s own self-serving
testimony. Claims of land dispute by family members
without more does not support the respondent’s claim
that he was persecuted on account of his membership
in a particular social group. The Court finds that
respondent has not met his burden to show past
persecution based on any statutorily protected
ground-or has established that it is more likely than
not that he will suffer future harm in Guatemala
based on any statutory ground.
Because respondent has not shown past
persecution, he is not entitled to a presumption of a
well-founded fear of future persecution.

36a
If the applicant’s fear of persecution is unrelated to
past persecution, the applicant bears the burden of
establishing that the fear is well-founded. An
applicant has a well-founded fear of future
persecution if the applicant has a fear of persecution
in his country of nationality on account of one of the
five protected grounds, if there is a reasonable
possibility of suffering such persecution if he were to
return to that country, and if he is unable to unwilling
to return or to avail himself of the protection of that
country because of such fear. 8 C.F.R. 1208.13(b)(2)(i).
A well-founded fear of persecution does not exist
where the applicant could avoid persecution by
relocating to another part of the country and such
relocation would be reasonable. The applicant’s fear of
persecution must be countrywide. Mohamed v.
Ashcroft, 396 F.3d 999 (8th Cir. 2005); Matter of
Acosta, 19 I&N Dec. 235.
In this particular case, the respondent has not
established a reasonable possibility of suffering
persecution based on any statutory ground if he were
to return to his country. In addition, a well-founded
fear of persecution does not exist where the applicant
could avoid persecution by relocating to another part
of the country and such relocation would be
reasonable.
The Court finds that, based on the record and the
respondent’s testimony, the respondent could relocate
to another part of Guatemala since the claimed fear of
persecution in this case is not countrywide but based
on a land feud between two municipalities; Ixchiguan,
Chuapoequez, and Tajumulco. The respondent could
relocate to a safe place in Guatemala. With respect to

37a
the people of Ixchiguan or Tajumulco, respondent has
not produced evidence-showing his fear of them is
based on anything other than a land dispute that he
claims occurred many, many years ago.
Respondent contends that the government will not
protect him from these people. The record does show
that there are many land disputes in Guatemala, and
that the mechanisms to resolve them are sometimes
inadequate. See Exhibits 3 and 4. However, a land
dispute alone does not rise to the level of persecution.
See Arillas v. Mendez, 790 F.3d at 790 stating
persecution is an extreme concept The record, the
respondent’s testimony, does not establish that the
respondent suffered past persecution or has a wellfounded fear of future persecution in Guatemala.
Furthermore, respondent has not shown the
government would turn a blind eye to harm inflicted
on him by the people of Ixchiguan, or Tajumulco, or
anyone in Guatemala. Respondent has not offered
sufficient evidence to show the government acquiesces
to criminal activity. The record does not establish that
the state actors in the Guatemala government
acquiesce to land feud violence.
Respondent has also not met his burden of
demonstrating eligibility for relief under the
Convention Against Torture. Torture is defined as any
act by which severe pain or suffering, whether
physical or mental, is intentionally inflicted on a
person. 8 C.F.R. 1208.18(a)(1). The regulations
further instruct torture is an extreme form of cruel
and inhuman treatment which does not include less
forms of inhuman or degrading treatment or
punishment.

38a
Based on the preceding discussion, the Court
concludes respondent has not met his burden to show
he would more likely than not be tortured by or with
the acquiescence of the Guatemalan government if
removed to Guatemala.
Accordingly,
respondent’s
application
for
withholding of removal and withholding of removal
under the Convention Against Torture are denied.
ORDERS
WHEREFORE IT IS ORDERED that the charge
that appears in the Notice to Appear is sustained, and
respondent’s inadmissibility established.
IT IS FURTHER ORDERED that the respondent’s
application for withholding of removal under Section
241 (b)(3) of the Act be denied;
IT IS FURTHER ORDERED that respondent’s
application for protection under the Convention
Against Torture be denied.
IT IS FURTHER ORDERED that respondent’s
request for voluntary departure be and is hereby
granted pursuant to Section 240B(d) of the Act for a
period not to exceed 30 days from the date of this
order. That is, the respondent must voluntarily depart
the United States on or before December 8, 2017. Once
again, December 8, 2017, without expense to the
Government and under such conditions as the
Department of Homeland Security may impose.
The Court hereby notifies the respondent, pursuant
to Section 240B(d) of the Act that failure to voluntarily
depart the United States within the time period
specified by the Court shall subject the respondent to

39a
a civil penalty that the Court is setting at $3,000, and
the respondent will be ineligible for a period of 10
years to receive relief under Sections 240A, 240B, 245,
248, and 249 of the Act.
IT IS FURTHER ORDERED that the respondent
must post a $500 voluntary departure bond within
five business days of this order with the Department
of Homeland Security. The respondent’s voluntary
departure bond must be posted on or before November
15, 2017. If the bond is not posted within this time
period, the voluntary departure order shall vacate
automatically, and an alternate order of removal set
forth below will take effect immediately.
The Court hereby notifies the respondent that he
must within 30 days of filing an appeal with the Board
of Immigration Appeals submit proof of having posted
the required voluntary departure bond. If respondent
does not provide timely proof to the Board that the
required bond has been posted, the Board will not
reinstate the period of voluntary departure in its final
order.
The Court further notifies the respondent that if he
files a post-order motion to re-open or motion to
reconsider during the period allowed for voluntary
departure, the grant of voluntary departure shall
terminate automatically, and alternate order of
removal set forth below will take effect immediately,
and the penalties for failure to depart voluntarily will
not apply.
If respondent fails to voluntarily depart within the
specified time or to comply with the above conditions,
the order granting voluntary departure shall vacate
automatically, and without further notice, the

40a
following alternate orders shall become immediately
effective:
Respondent shall be removed from the United
States to Guatemala on the charge in the Notice to
Appear.

Please see the next page for electronic
signature
CRIMILDA
GUILLOTY
Immigration
Judge
//s//
Immigration Judge CRIMILDA GUILLOTY
i:05.t|doj federation services rpstslcrimilda.guilloty@usdoj.gov on May 18, 2018 at
6:41 PM GMT

41a
APPENDIX D
U.S. Department of Justice
Executive Office for Immigration Review
United States Immigration Court
In the Matter of

AGUSTO NIZ-CHAVEZ
RESPONDENT

File: A205-000-967

)
)
)
)

IN REMOVAL
PROCEEDINGS
Transcript of
Hearing

Before CRIMILDA GUILLOTY, Immigration Judge
Date: September 13, 2017
Place: DETROIT, MICHIGAN
Transcribed by DEPOSITION SERVICES, Inc.-2
Official Interpreter: MS. SUNOM
Language: SPANISH
Appearances:
For the Respondent: MAYA HOLLEMAN
For the DHS: Michael El-ZEIN

42a
***
JUDGE FOR THE RECORD
Now, also, on the record, we’ve been back and forth
regarding the respondent’s eligibility, perhaps, for
cancellation of removal because he has United States
citizen children, and he’s been in the United States, it
seems, for more than 10 years. However, Government
pointed out that he, according to the application,
entered the United States in February 2005. His NTA
was issued March 26, 2013. So he would not have the
physical presence. And I agree with the Government.
I think we all agree with the Government. It’s just
that since counsel was not sure, we weren’t focusing
on that specifically, because there is some evidence in
the record to indicate that the respondent has been in
the United States for more than 10 years.
Nevertheless, I think that is settled. Well, that was
the discussion that we went, basically, off the record.
***

43a
APPENDIX E
1. The current version of 8 U.S.C. § 1229 provides:
§ 1229. Initiation of removal proceedings
(a) Notice to appear
(1) In general
In removal proceedings under section 1229a of
this title, written notice (in this section referred to
as a “notice to appear”) shall be given in person to
the alien (or, if personal service is not practicable,
through service by mail to the alien or to the alien’s
counsel of record, if any) specifying the following:
(A) The nature of the proceedings against the
alien.
(B) The legal authority under which the
proceedings are conducted.
(C) The acts or conduct alleged to be in
violation of law.
(D) The charges against the alien and the
statutory provisions alleged to have been
violated.
(E) The alien may be represented by counsel
and the alien will be provided (i) a period of time
to secure counsel under subsection (b)(1) and (ii)
a current list of counsel prepared under
subsection (b)(2).
(F) (i) The requirement that the alien must
immediately provide (or have provided) the
Attorney General with a written record of an

44a
address and telephone number (if any) at which
the alien may be contacted respecting
proceedings under section 1229a of this title.
(ii) The requirement that the alien must
provide the Attorney General immediately with
a written record of any change of the alien’s
address or telephone number.
(iii)
The
consequences
under
section 1229a(b)(5) of this title of failure to
provide address and telephone information
pursuant to this subparagraph.
(G) (i) The time and place at which the
proceedings will be held.
(ii)
The
consequences
under
section 1229a(b)(5) of this title of the failure,
except under exceptional circumstances, to
appear at such proceedings.
(2) Notice of change in time or place of proceedings
(A) In general
In removal proceedings under section 1229a of
this title, in the case of any change or
postponement in the time and place of such
proceedings, subject to subparagraph (B) a
written notice shall be given in person to the
alien (or, if personal service is not practicable,
through service by mail to the alien or to the
alien’s counsel of record, if any) specifying—
(i) the new time or place of the proceedings,
and
(ii)
the
consequences
under
section 1229a(b)(5) of this title of failing, except

45a
under exceptional circumstances, to attend such
proceedings.
(B) Exception
In the case of an alien not in detention, a
written notice shall not be required under this
paragraph if the alien has failed to provide the
address required under paragraph (1)(F).
(3) Central address files
The Attorney General shall create a system to
record and preserve on a timely basis notices of
addresses and telephone numbers (and changes)
provided under paragraph (1)(F).
(b) Securing of counsel
(1) In general
In order that an alien be permitted the
opportunity to secure counsel before the first
hearing date in proceedings under section 1229a of
this title, the hearing date shall not be scheduled
earlier than 10 days after the service of the notice to
appear, unless the alien requests in writing an
earlier hearing date.
(2) Current lists of counsel
The Attorney General shall provide for lists
(updated not less often than quarterly) of persons
who have indicated their availability to represent
pro bono aliens in proceedings under section 1229a
of this title. Such lists shall be provided under
subsection (a)(1)(E) and otherwise made generally
available.
(3) Rule of construction

46a
Nothing in this subsection may be construed to
prevent the Attorney General from proceeding
against an alien pursuant to section 1229a of this
title if the time period described in paragraph (1)
has elapsed and the alien has failed to secure
counsel.
(c) Service by mail
Service by mail under this section shall be sufficient
if there is proof of attempted delivery to the last
address provided by the alien in accordance with
subsection (a)(1)(F).
(d) Prompt initiation of removal
(1) In the case of an alien who is convicted of an
offense which makes the alien deportable, the
Attorney General shall begin any removal proceeding
as expeditiously as possible after the date of the
conviction.
(2) Nothing in this subsection shall be construed to
create any substantive or procedural right or benefit
that is legally enforceable by any party against the
United States or its agencies or officers or any other
person.
(e) Certification of compliance with
restrictions on disclosure
(1) In general
In cases where an enforcement action leading to a
removal proceeding was taken against an alien at
any of the locations specified in paragraph (2), the
Notice to Appear shall include a statement that the

47a
provisions of section 1367 of this title have been
complied with.
(2) Locations
The locations specified in this paragraph are as
follows:
(A) At a domestic violence shelter, a rape crisis
center, supervised visitation center, family justice
center, a victim services, or victim services
provider, or a community-based organization.
(B) At a courthouse (or in connection with that
appearance of the alien at a courthouse) if the
alien is appearing in connection with a protection
order case, child custody case, or other civil or
criminal case relating to domestic violence, sexual
assault, trafficking, or stalking in which the alien
has been battered or subject to extreme cruelty or
if the alien is described in subparagraph (T) or (U)
of section 1101 (a)(15) of this title.

48a
2. The current version of 8 U.S.C. § 1229b provides:
§ 1229b. Cancellation of removal; adjustment of
status
(a) Cancellation of removal for certain
permanent residents
The Attorney General may cancel removal in the
case of an alien who is inadmissible or deportable from
the United States if the alien—
(1) has been an alien lawfully admitted for
permanent residence for not less than 5 years,
(2) has resided in the United States continuously
for 7 years after having been admitted in any
status, and
(3) has not been convicted of any aggravated
felony.
(b) Cancellation of removal and adjustment of
status for certain nonpermanent residents
(1) In general
The Attorney General may cancel removal of,
and adjust to the status of an alien lawfully
admitted for permanent residence, an alien who is
inadmissible or deportable from the United States
if the alien—
(A) has been physically present in the United
States for a continuous period of not less than
10 years immediately preceding the date of such
application;

49a
(B) has been a person of good moral character
during such period;
(C) has not been convicted of an offense under
section 1182(a)(2), 1227(a)(2), or 1227(a)(3) of
this title, subject to paragraph (5); and
(D) establishes that removal would result in
exceptional and extremely unusual hardship to
the alien’s spouse, parent, or child, who is a
citizen of the United States or an alien lawfully
admitted for permanent residence.
(2) Special rule for battered spouse or child
(A) Authority
The Attorney General may cancel removal of,
and adjust to the status of an alien lawfully
admitted for permanent residence, an alien
who is inadmissible or deportable from the
United States if the alien demonstrates that—
(i) (I) the alien has been battered or
subjected to extreme cruelty by a spouse or
parent who is or was a United States citizen
(or is the parent of a child of a United States
citizen and the child has been battered or
subjected to extreme cruelty by such citizen
parent);
(II) the alien has been battered or subjected
to extreme cruelty by a spouse or parent who
is or was a lawful permanent resident (or is
the parent of a child of an alien who is or was
a lawful permanent resident and the child has

50a
been battered or subjected to extreme cruelty
by such permanent resident parent); or
(III) the alien has been battered or subjected
to extreme cruelty by a United States citizen
or lawful permanent resident whom the alien
intended to marry, but whose marriage is not
legitimate because of that United States
citizen’s or lawful permanent resident’s
bigamy;
(ii) the alien has been physically present in
the United States for a continuous period of
not less than 3 years immediately preceding
the date of such application, and the issuance
of a charging document for removal
proceedings shall not toll the 3-year period of
continuous physical presence in the United
States;
(iii) the alien has been a person of good
moral character during such period, subject to
the provisions of subparagraph (C);
(iv) the alien is not inadmissible under
paragraph (2) or (3) of section 1182(a) of this
title,
is
not
deportable
under
paragraphs (1)(G) or (2) through (4) of
section 1227(a) of this title, subject to
paragraph (5), and has not been convicted of
an aggravated felony; and
(v) the removal would result in extreme
hardship to the alien, the alien’s child, or the
alien’s parent.
(B) Physical presence

51a
Notwithstanding subsection (d)(2), for
purposes of subparagraph (A)(ii) or for purposes
of section 1254(a)(3) of this title (as in effect
before the title 111-A effective date in section
309 of the Illegal Immigration Reform and
Immigrant Responsibility Act of 1996), an alien
shall not be considered to have failed to
maintain continuous physical presence by
reason of an absence if the alien demonstrates a
connection between the absence and the
battering or extreme cruelty perpetrated
against the alien. No absence or portion of an
absence connected to the battering or extreme
cruelty shall count toward the 90-day or 180-day
limits established in subsection (d)(2). If any
absence or aggregate absences exceed 180 days,
the absences or portions of the absences will not
be considered to break the period of continuous
presence. Any such period of time excluded
from the 180-day limit shall be excluded in
computing the time during which the alien has
been physically present for purposes of the 3year
requirement
set
forth
in
this
subparagraph, subparagraph (A)(ii), and section
1254(a)(3) of this title (as in effect before the
title III-A effective date in section 309 of the
Illegal Immigration Reform and Immigrant
Responsibility Act of 1996).
(C) Good moral character
Notwithstanding section 1101(f) of this title,
an act or conviction that does not bar the
Attorney General from granting relief under
this
paragraph
by
reason
of

52a
subparagraph (A)(iv) shall not bar the Attorney
General from finding the alien to be of good
moral character under subparagraph (A)(iii) or
section 1254(a)(3) of this title (as in effect before
the title III-A effective date in section 309 of the
Illegal Immigration Reform and Immigrant
Responsibility Act of 1996), if the Attorney
General finds that the act or conviction was
connected to the alien’s having been battered or
subjected to extreme cruelty and determines
that a waiver is otherwise warranted.
(D) Credible evidence considered
In acting on applications under this
paragraph, the Attorney General shall consider
any credible evidence relevant to the
application.
The determination of what
evidence is credible and the weight to be given
that evidence shall be within the sole discretion
of the Attorney General.
(3) Recordation of date
With respect to aliens who the Attorney General
adjusts to the status of an alien lawfully admitted
for permanent residence under paragraph (1) or (2),
the Attorney General shall record the alien’s lawful
admission for permanent residence as of the date of
the Attorney General’s cancellation of removal
under paragraph (1) or (2).
(4) Children of battered aliens and parents of
battered alien children
(A) In general

53a
The Attorney General shall grant parole
under section 1182(d)(5) of this title to any alien
who is a—
(i) child of an alien granted relief under
section 1229b(b)(2) or 1254(a)(3) of this title
(as in effect before the title III-A effective date
in section 309 of the Illegal Immigration
Reform and Immigrant Responsibility Act of
1996); or
(ii) parent of a child alien granted relief
under section 1229b(b)(2) or 1254(a)(3) of this
title (as in effect before the title III-A effective
date in section 309 of the Illegal Immigration
Reform and Immigrant Responsibility Act of
1996).
(B) Duration of parole
The grant of parole shall extend from the time
of the grant of relief under subsection (b)(2) or
section 1254(a)(3) of this title (as in effect before
the title III-A effective date in section 309 of the
Illegal Immigration Reform and Immigrant
Responsibility Act of 1996) to the time the
application for adjustment of status filed by
aliens covered under this paragraph has been
finally
adjudicated.
Applications
for
adjustment of status filed by aliens covered
under this paragraph shall be treated as if the
applicants were VAWA self-petitioners. Failure
by the alien granted relief under subsection
(b)(2) or section 1254(a)(3) of this title (as in
effect before the title III-A effective date in
section 309 of the Illegal Immigration Reform
and Immigrant Responsibility Act of 1996) to

54a
exercise due diligence in filing a visa petition on
behalf of an alien described in clause (i) or (ii)
may result in revocation of parole.
(5) Application
authority

of

domestic

violence

waiver

The authority provided under section 1227(a)(7)
of this title may apply under paragraphs (1)(B),
(1)(C), and (2)(A) (iv) in a cancellation of removal
and adjustment of status proceeding.
(6) Relatives of trafficking victims
(A) In general
Upon written request by a law enforcement
official, the Secretary of Homeland Security
may parole under section 1182(d)(5) of this title
any alien who is a relative of an alien granted
continued presence under section 7105(c)(3)(A)
of title 22, if the relative—
(i) was, on the date on which law
enforcement applied for such continued
presence—
(I) in the case of an alien granted continued
presence who is under 21 years of age, the
spouse, child, parent, or unmarried sibling
under 18 years of age, of the alien; or
(II) in the case of an alien granted continued
presence who is 21 years of age or older, the
spouse or child of the alien; or
(ii) is a parent or sibling of the alien who the
requesting law enforcement official, in
consultation with the Secretary of Homeland

55a
Security, as appropriate, determines to be in
present danger of retaliation as a result of the
alien’s escape from the severe form of
trafficking
or
cooperation
with
law
enforcement, irrespective of age.
(B) Duration of parole
(i) In general
The Secretary may extend the parole
granted under subparagraph (A) until the
final adjudication of the application filed by
the
principal
alien
under
section 1101(a)(15)(T)(ii) of this title.
(ii) Other limits on duration
If an application described in clause (i) is not
filed, the parole granted under subparagraph
(A) may extend until the later of—
(I) the date on which the principal alien’s
authority to remain in the United States
under section 7105(c)(3) (A) of title 22 is
terminated; or
(II) the date on which a civil action filed by
the principal alien under section 1595 of
title 18 is concluded.
(iii) Due diligence
Failure by the principal alien to exercise due
diligence in filing a visa petition on behalf of
an alien described in clause (i) or (ii) of
subparagraph (A), or in pursuing the civil
action described in clause (ii)(II) (as
determined by the Secretary of Homeland

56a
Security in consultation with the Attorney
General), may result in revocation of parole.
(C) Other limitations
A relative may not be granted parole under
this paragraph if—
(i) the Secretary of Homeland Security or
the Attorney General has reason to believe
that the relative was knowingly complicit in
the trafficking of an alien permitted to remain
in
the
United
States
under
section 7105(c)(3)(A) of title 22; or
(ii) the relative is an alien described in
paragraph (2) or (3) of section 1182(a) of this
title or paragraph (2) or (4) of section 1227(a)
of this title.
(c) Aliens ineligible for relief
The provisions of subsections (a) and (b)(1) shall not
apply to any of the following aliens:
(1) An alien who entered the United States as a
crewman subsequent to June 30, 1964.
(2) An alien who was admitted to the United
States as a nonimmigrant exchange alien as defined
in section 1101(a)(15)(J) of this title, or has acquired
the status of such a nonimmigrant exchange alien
after admission, in order to receive graduate
medical education or training, regardless of whether
or not the alien is subject to or has fulfilled the twoyear foreign residence requirement of section
1182(e) of this title.
(3) An alien who—

57a
(A) was admitted to the United States as a
nonimmigrant exchange alien as defined in
section 1101 (a)(15)(J) of this title or has acquired
the status of such a nonimmigrant exchange alien
after admission other than to receive graduate
medical education or training,
(B) is subject to the two-year foreign residence
requirement of section 1182(e) of this title, and
(C) has not fulfilled that requirement or
received a waiver thereof.
(4) An alien who is inadmissible under
section 1182(a)(3) of this title or deportable under
section 1227(a)(4) of this title.
(5)
An
alien
who
is
described
section 1231(b)(3)(B)(i) of this title.

in

(6) An alien whose removal has previously been
cancelled under this section or whose deportation
was suspended under section 1254(a) of this title or
who has been granted relief under section 1182(c) of
this title, as such sections were in effect before
September 30, 1996.
(d) Special rules relating to continuous
residence or physical presence
(1) Termination of continuous period
For purposes of this section, any period of
continuous residence or continuous physical
presence in the United States shall be deemed to
end (A) except in the case of an alien who applies for
cancellation of removal under subsection (b)(2),
when the alien is served a notice to appear under
section 1229(a) of this title, or (B) when the alien

58a
has committed an offense referred to in
section 1182(a)(2) of this title that renders the alien
inadmissible to the United States under section
1182(a)(2) of this title or removable from the United
States under section 1227(a)(2) or 1227(a)(4) of this
title, whichever is earliest.
(2) Treatment of certain breaks in presence
An alien shall be considered to have failed to
maintain continuous physical presence in the
United States under subsections (b)(1) and (b)(2) if
the alien has departed from the United States for
any period in excess of 90 days or for any periods in
the aggregate exceeding 180 days.
(3) Continuity not required because of honorable
service in Armed Forces and presence upon entry into
service
The requirements of continuous residence or
continuous physical presence in the United States
under subsections (a) and (b) shall not apply to an
alien who—
(A) has served for a minimum period of
24 months in an active-duty status in the Armed
Forces of the United States and, if separated from
such service, was separated under honorable
conditions, and
(B) at the time of the alien’s enlistment or
induction was in the United States.
(e) Annual limitation
(1) Aggregate limitation

59a
Subject to paragraphs (2) and (3), the Attorney
General may not cancel the removal and adjust the
status under this section, nor suspend the
deportation and adjust the status under
section 1254(a) of this title (as in effect before
September 30, 1996), of a total of more than 4,000
aliens in any fiscal year. The previous sentence
shall apply regardless of when an alien applied for
such cancellation and adjustment, or such
suspension and adjustment, and whether such an
alien had previously applied for suspension of
deportation under such section 1254(a) of this title.
The numerical limitation under this paragraph
shall apply to the aggregate number of decisions in
any fiscal year to cancel the removal (and adjust the
status) of an alien, or suspend the deportation (and
adjust the status) of an alien, under this section or
such section 1254(a) of this title.
(2) Fiscal year 1997
For fiscal year 1997, paragraph (1) shall only
apply to decisions to cancel the removal of an alien,
or suspend the deportation of an alien, made after
April 1, 1997. Notwithstanding any other provision
of law, the Attorney General may cancel the removal
or suspend the deportation, in addition to the
normal allotment for fiscal year 1998, of a number
of aliens equal to 4,000 less the number of such
cancellations of removal and suspensions of
deportation granted in fiscal year 1997 after April 1,
1997.
(3) Exception for certain aliens
Paragraph (1) shall not apply to the following:

60a
(A) Aliens described in section 309(c)(5)(C)(i) of
the Illegal Immigration Reform and Immigrant
Responsibility Act of 1996 (as amended by the
Nicaraguan Adjustment and Central American
Relief Act).
(B) Aliens in deportation proceedings prior to
April 1, 1997, who applied for suspension of
deportation under section 1254(a)(3) of this title
(as in effect before September 30, 1996).

61a
3. The current version of 8 C.F.R. § 1003.18 provides:
§ 1003.18 Scheduling of cases.
(a) The Immigration Court shall be responsible for
scheduling cases and providing notice to the
government and the alien of the time, place, and date
of hearings.
(b) In removal proceedings pursuant to section 240
of the Act, the Service shall provide in the Notice to
Appear, the time, place and date of the initial removal
hearing, where practicable. If that information is not
contained in the Notice to Appear, the Immigration
Court shall be responsible for scheduling the initial
removal hearing and providing notice to the
government and the alien of the time, place, and date
of hearing. In the case of any change or postponement
in the time and place of such proceeding, the
Immigration Court shall provide written notice to the
alien specifying the new time and place of the
proceeding and the consequences under section
240(b)(5) of the Act of failing, except under exceptional
circumstances as defined in section 240(e)(1) of the
Act, to attend such proceeding. No such notice shall be
required for an alien not in detention if the alien has
failed to provide the address required in section
239(a)(1)(F) of the Act.

62a
4. The 1994 version of 8 U.S.C. § 1252b provided in
pertinent part:
§ 1252b. Deportation procedures
(a) Notices
(1) Order to show cause
In deportation proceedings under section 1252 of
this title, written notice (in this section referred to
as an “order to show cause”) shall be given in person
to the alien (or, if personal service is not practicable,
such notice shall be given by certified mail to the
alien or to the alien’s counsel of record, if any)
specifying the following:
(A) The nature of the proceedings against the
alien.
(B) The legal authority under which the
proceedings are conducted.
(C) The acts or conduct alleged to be in violation
of law.
(D) The charges against the alien and the
statutory provisions alleged to have been violated.
(E) The alien may be represented by counsel and
the alien will be provided a list of counsel
prepared under subsection (b)(2) of this section.
(F) (i) The requirement that the alien must
immediately provide (or have provided) the
Attorney General with a written record of an
address and telephone number (if any) at which
the alien may be contacted respecting proceedings
under section 1252 of this title.

63a
(ii) The requirement that the alien must
provide the Attorney General immediately with
a written record of any change of the alien’s
address or telephone number.
(iii) The consequences under subsection (c)(2)
of this section of failure to provide address and
telephone information pursuant to this
subparagraph.
(2) Notice of time and place of proceedings
In deportation proceedings under section 1252 of
this title—
(A) written notice shall be given in person to the
alien (or, if personal service is not practicable,
written notice shall be given by certified mail to the
alien or to the alien’s counsel of record, if any), in the
order to show cause or otherwise, of –
(i) the time and place at which the proceedings
will be held, and
(ii) the consequences under subsection (c) of
this section of the failure, except under
exceptional circumstances, to appear at such
proceedings; and
(B) in the case of any change or postponement in
the time and place of such proceedings, written
notice shall be given in person to the alien (or, if
personal service is not practicable, written notice
shall be given by certified mail to the alien or to the
alien’s counsel of record, if any) of—
(i) the new time or place of the proceedings,
and

64a
(ii) the consequences under subsection (c) of
this section of failing, except under exceptional
circumstances, to attend such proceedings.
In the case of an alien not in detention, a written
notice shall not be required under this paragraph if
the alien has failed to provide the address required
under subsection(a)(1)(F) of this section.
****

